<html>
<title> - H.R. 53, VIRGIN ISLANDS NATIONAL PARK SCHOOL LEASE ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                        H.R. 53, VIRGIN ISLANDS
                             NATIONAL PARK
                           SCHOOL LEASE ACT

=======================================================================

                       LEGISLATIVE FIELD HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

           Monday, July 9, 2007, in Cruz Bay, St. John, USVI

                               __________

                           Serial No. 110-34

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
36-646                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Bobby Jindal, Louisiana
Dan Boren, Oklahoma                  Louie Gohmert, Texas
John P. Sarbanes, Maryland           Tom Cole, Oklahoma
George Miller, California            Rob Bishop, Utah
Edward J. Markey, Massachusetts      Bill Shuster, Pennsylvania
Peter A. DeFazio, Oregon             Dean Heller, Nevada
Maurice D. Hinchey, New York         Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Doug Lamborn, Colorado
Ron Kind, Wisconsin                  Mary Fallin, Oklahoma
Lois Capps, California               Kevin McCarthy, California
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON INSULAR AFFAIRS

            DONNA M. CHRISTENSEN, Virgin Islands, Chairwoman
        LUIS G. FORTUNO, Puerto Rico, Ranking Republican Member

Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            Jeff Flake, Arizona
Raul M. Grijalva, Arizona            Don Young, Alaska, ex officio
Madeleine Z. Bordallo, Guam
Nick J. Rahall II, West Virginia, 
    ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Monday, July 9, 2007.............................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     1
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3

Statement of Witnesses:
    Barshinger, Hon. Craig, Former At-Large-Senator..............    30
    Bogle, Martha, Acting Superintendent, Virgin Islands National 
      Park, National Park Service, U.S. Department of the 
      Interior...................................................     4
        Prepared statement of....................................     5
    Cox, Kristen, One Campus Group...............................    22
        Prepared statement of....................................    23
    Hassell-Forde, Lisa A., Insular Superintendent, Government of 
      the Virgin Islands.........................................    10
        Prepared statement of....................................    11
    Jones, Ronnie, Unity Day Group...............................    20
        Prepared statement of....................................    22
    Kessler, Joe, President, Friends of Virgin Islands National 
      Park.......................................................    25
        Prepared statement of....................................    27
    Monsanto, Lorelei C., One Campus Group.......................    18
        Prepared statement of....................................    19
    Smith, Hon. Leona, St. John Administrator, Government of the 
      U.S. Virgin Islands........................................     8
        Prepared statement of....................................     9
    Sprauve, Gaylord, Resident, U.S. Virgin Islands..............    28
        Prepared statement of....................................    29
    Wesselhoft, Hon. Carmen Miranda, Senator-at-Large, 
      28<SUP>th</SUP> Legislature of the U.S. Virgin Islands.....    11
        Prepared statement of....................................    13

Additional materials supplied:
    List of individuals submitting information for the record....    41
                                     



LEGISLATIVE FIELD HEARING ON H.R. 53, TO AUTHORIZE THE SECRETARY OF THE 
  INTERIOR TO ENTER INTO A LONG-TERM LEASE WITH THE GOVERNMENT OF THE 
UNITED STATES VIRGIN ISLANDS FOR THE ESTABLISHMENT OF A SCHOOL, AND FOR 
   OTHER PURPOSES. ``VIRGIN ISLANDS NATIONAL PARK SCHOOL LEASE ACT''

                              ----------                              


                          Monday, July 9, 2007

                     U.S. House of Representatives

                    Subcommittee on Insular Affairs

                     Committee on Natural Resources

                        Cruz Bay, St. John, USVI

                              ----------                              

    The Subcommittee met, pursuant to call, at 6:00 p.m.,in the 
St. John Legislature Hearing Room, Cruz Bay, St. John, USVI, 
Hon. Donna Christensen [Chairwoman of the Subcommittee] 
presiding.
    Present: Representatives Christensen and Grijalva.

STATEMENT OF THE HONORABLE DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Good evening. Can everyone hear me? Good 
evening. The legislative hearing by the Subcommittee on Insular 
Affairs will come to order.
    The Subcommittee is meeting today to hear testimony on H.R. 
53, to authorize the Secretary of Interior to enter into a 
long-term lease with the Government of the United States Virgin 
Islands for the establishment of a school, and for other 
purposes.
    Under the Committee Rules, the Chairman and other members 
may make an opening statement. I will begin with my opening 
statement. I want to begin by welcoming my colleague, Mr. Raul 
Grijalva, who is the Chairman of the Subcommittee on National 
Parks, Forests and Public Lands of the Committee on Natural 
Resources. He is also a member of the Committee on Education 
and Labor. So, I think it's very fortuitous for us that Mr. 
Grijalva is here wearing both hats. One, on the Education 
Committee, and two, as Chair of the Subcommittee on Parks.
    And this is a very important hearing as can be witnessed by 
the number of people in attendance this evening, and I'm sure 
some more will join us as we go on from here. I don't think 
there is any more important issue before the people of St. John 
right now than securing suitable land to construct a school.
    I want to welcome everyone who came out this evening, 
especially our witnesses, those who will give written testimony 
and those who will give oral testimony as well.
    We received written statements thus far from Mr. Alvis 
Christian, Mr. Steve Black, Ms. Crystal Fortwangler and Ms. 
Myrtle Barry. They will be included in the record of tonight's 
hearing, and we welcome anyone else who wishes to submit a 
statement as well. Anyone wishing to do so have up to ten 
business days from today to send it in. I want to especially 
welcome our Administrator and our Senator-at-Large who is just 
joining us.
    Let me just say before we get into the testimony, I 
introduced the bill before us, H.R. 53, in an attempt to move 
the issue of a school for St. John forward. For many years now 
we've been bogged down, administration after administration, in 
working to find suitable land to exchange with the Park 
Service. And over the years both sides, the Park Service as 
well as the Virgin Islands Government, has acted in good faith 
in attempting to come up with an exchange of land without 
success. And I'm sure there are many people in the room who are 
glad that has been without success.
    In the meantime, more than 30 years have passed and the 
school age population in St. John has doubled. High school 
students continue to make the trip by ferry over to St. Thomas 
every day just to attend school. And I'm certain that all of us 
remember little Javone Alfred, a second grader on his way home 
from a Christmas party at Julius Sprauve School, who was struck 
and killed by a delivery truck while crossing the street, in 
full view of many other students who were also heading home. 
And this tragedy clearly demonstrates that the crowded town of 
Cruz Bay is not the place for an elementary school and the 
urgency to get the school out of downtown.
    Over the years, more and more of you have met me and 
expressed your strong opposition to the people of St. John and 
the Virgin Islands giving any more land to the National Park. 
After researching other options through the Congressional 
Research Service and committee staff, I introduced H.R. 53, 
which calls for a long-term lease instead of the exchange of 
land. And we all appreciate what the Park means to St. John and 
the territory.
    But I still know that many of you still believe that owning 
more than two-thirds of the land of the island of St. John is 
enough land for the National Park, and would like to see the 
Park outright donate the land needed to build the school as a 
gesture of good will to the people of St. John.
    While the Park Service does not have the legal authority to 
donate or lease land, we still have not ruled out the option of 
a conveyance completely. And this hearing today is the first 
step in deciding which is the best option and which is the most 
feasible option for us to pursue. But the most important thing 
is getting our children out of harm's way in a supportive and 
nurturing educational environment as soon as possible.
    And in closing, I want again to thank everyone who is 
attending this evening. I want to recognize two Senators who 
are with us, Senator Hill, excuse me, and Senator Ottley. Thank 
you for the use of the Legislative Chamber. And also I want to 
recognize our former Judge Moore. This morning we were at the 
Federal Court in St. Thomas.
    At this time I would like to recognize for such opening 
statement as he may want to make, Congressman Raul Grijalva.

                                     

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Madam Chair. Can you hear me? 
Thank you, Madam Chair. I will just lean closer.
    Good evening, and let me begin by once again thanking 
Congresswoman Christensen for hosting these hearings here in 
her district. The U.S. Virgin Islands are truly a special 
place, and it's been an honor to be able to visit this 
beautiful place with my distinguished colleagues, and other 
colleagues that joined us earlier in the day. As I mentioned at 
our hearing this morning in St. Thomas, Chairwoman Christensen 
is the leader on the National Resources Committee. She is 
active on a variety of issues, education, health care, homeland 
security, and just to let her constituents know that you are 
well represented by a strong advocate and with a great deal of 
intelligence and discipline in Congress. And you should be 
pleased by her representation.
    As Chairman of the National Parks, Forests and Public Lands 
Subcommittee, I am particularly pleased to have had the 
opportunity to visit St. John and the Virgin Islands National 
Park. This Park includes some of the most beautiful special 
places and scenery in the entire National Park System. But 
what's also significant is the historic and cultural resources 
that are being preserved.
    The topic today is the need for school facilities on St. 
John. On the Education and Labor Committee we've had a variety 
of hearings as we've gone through the process of reauthorizing 
No Child Left Behind. And one of--with the intent of 
reauthorizing No Child Left Behind and with a mission behind No 
Child Left Behind, was to close out achievement gap and make 
sure that every child had the opportunity equal to anybody 
else's opportunity. And one of--besides all the other 
complicated issues we need to go through, one of our hearings I 
recall posing a question to a school superintendent, and I 
asked him, the issue of school facilities, how important is 
that to achievement, to the well-being, the quality of 
education, the safety, the security of children and students. 
And they said, well, that is sometimes not factored into the 
issue of achievement and is a critical part of the issue of 
achievement.
    So, I'm looking forward to the witnesses today. I think it 
is imperative that the students here on St. John have the 
opportunity to have education on their island and it's 
critical. The Federal government, National Park Service, and 
the Government of the Virgin Islands must work together to 
address this very, very critical issue. It is a pressing need 
on behalf of the students of St. John.
    So, I look forward again to hearing from our witnesses this 
evening regarding the best solution for this problem, and the 
next steps we can take to move toward a solution. I appreciate 
the time and the effort of our witnesses and thank them for 
joining us this evening. And with that, Madam Chairwoman, thank 
you and I yield back.
    Mrs. Christensen. Thank you, Mr. Grijalva. I will allow 
some of the people joining us to take some seats. And when we 
run out of seats we will start to use some of these up here. 
But at this time I would like to recognize the witness for our 
first panel. And as is customary, we begin with the 
representative from the Federal government.
    So our first panel will be Ms. Martha Bogle, the Acting 
Superintendent of the Virgin Islands National Park. And if you 
will join us here, I will recognize you for five minutes to 
give testimony. We have a little light here to help guide you 
on that, and welcome to the hearing.

STATEMENT OF MARTHA BOGLE, ACTING SUPERINTENDENT OF THE VIRGIN 
                     ISLANDS NATIONAL PARK

    Ms. Bogle. Thank you, Ms. Chairwoman. Thank you for the 
opportunity to appear before your subcommittee at this field 
hearing on H.R. 53, a bill to authorize the Secretary of 
Interior to enter into a long-term lease with the Government of 
the United States Virgin Islands to provide land for the 
establishment of a school. Because we don't typically provide 
positions on bills at field hearings, I will limit my comments 
to the history of this proposal and information concerning the 
National Park Service's existing administrative authorities to 
exchange or lease land within the park. We plan to follow up 
with a letter providing our position on the bill at a later 
date.
    As you know, Virgin Islands National Park was authorized by 
Congress in 1956 and established largely by an initial land 
donation from Laurance Rockefeller through the Jackson Hole 
Preserve, Incorporated. Congress enlarged the park in 1962 and 
additionally in 1978 when they added Hassel Island in St. 
Thomas Harbor to the park.
    H.R. 53 would authorize the Secretary to lease to the 
Government of the United States Virgin Islands real property, 
including any improvements, for the purposes of constructing a 
school complex to serve grades K through 12. The piece of 
property that has been tentatively identified for lease is a 
10-acre plot that is part of Estate Catherineberg, a historic 
sugar plantation located near the center of the island, close 
to Centerline Road. The property in question was not part of 
the Rockefeller donation, and is not encumbered by the 
reversionary clause that restricts the use of the Rockefeller 
properties to national park purposes. Though no formal survey 
has been done, the property is believed to contain fewer 
historic resources than other parts of the Estate. The property 
is near a road and other developments.
    During the past 14 years, the Government of the United 
States Virgin Islands and Virgin Islands National Park have 
discussed many proposals that would allow the Government of the 
Virgin Islands to construct a school on land currently owned by 
the National Park Service. These proposals have included an 
administrative land exchange. Though the Secretary of the 
Interior does have the authority to make minor boundary 
revisions of a unit of the National Park Service through a land 
exchange, the Land and Water Conservation Act stipulates 
several conditions that must be met before the land is 
exchanged and the boundary is revised.
    The land gained in the exchange must be ``necessary for the 
proper preservation, protection, interpretation, or management 
of an area of the national park system.'' Second, the total 
value of the land exchanged must be less than $750,000. Though 
no formal determination has been made, a land exchange 
involving the Catherineberg Estate property does not appear to 
meet either of these criteria. The exchange does not appear 
necessary for the protection of the park, and it appears that 
the Estate land alone is likely to be worth more than $750,000.
    During the 109<SUP>th</SUP> Congress, Delegate Christensen 
introduced H.R. 272 to legislatively authorize a land exchange. 
The Department of Interior did not take a position on H.R. 272.
    The Secretary does not have any other authority to allow 
the construction of a school on property owned and managed by 
the National Park Service. The 1998 National Parks Omnibus Act 
does give the Secretary the authority to lease buildings and 
associated property as long as the lease does not ``result in 
degradation of the purposes and values of the unit.'' While 
public education is not in conflict with the purpose of the 
Virgin Islands National Park, the construction of a complex of 
buildings appears to be in conflict with the direction given by 
the park's authorizing legislation.
    The National Historic Preservation Act gives the Secretary 
the authority to lease historic property, including historic 
buildings and historic lands, but only if the lease will 
adequately insure the preservation of historic property. New 
construction of an education complex would not insure that the 
historic character of the land in question is preserved.
    Finally, the Land and Water Conservation Act authorizes the 
Secretary of the Interior to convey to a freehold or leasehold 
interest in lands within the national park system, but this 
authority does not apply to property within national parks.
    That concludes my prepared remarks and I would be pleased 
to answer any questions that you or other members of the 
Subcommittee may have.
    [The prepared statement of Ms. Bogle follows:]

   Statement of Martha Bogle, Acting Superintendent, Virgin Islands 
 National Park, National Park Service, U.S. Department of the Interior

    Ms. Chairwoman, thank you for the opportunity to appear before your 
subcommittee at this field hearing on H.R. 53, a bill to authorize the 
Secretary of the Interior to enter into a long-term lease with the 
Government of the United States Virgin Islands to provide land for the 
establishment of a school. Because we do not typically provide 
positions on bills at field hearings, I will limit my comments to the 
history of this proposal and information concerning the National Park 
Service's existing administrative authorities to exchange or lease land 
within the park. We plan to send a followup letter providing our 
position on this bill.
    Virgin Islands National Park (park) was authorized by Congress in 
1956 and established largely by an initial land donation from Laurance 
Rockefeller through the Jackson Hole Preserve, Incorporated. Congress 
enlarged the park in 1962 by adding 5,650 acres of submerged lands 
along the north and south coasts of St. John. In 1978, Congress added 
approximately 135 acres at Hassel Island in St. Thomas Harbor to the 
park. The park protects Caribbean forests, coral gardens, beaches, and 
historic ruins and currently owns 12,917 acres of land and water within 
its 14,689-acre boundary.
    H.R. 53 would authorize the Secretary to lease to the Government of 
the United States Virgin Islands real property, including any 
improvements, for the purposes of constructing a school complex to 
serve grades K through 12. The piece of property that has been 
tentatively identified for lease is a 10-acre plot that is part of 
Estate Catherineberg, a historic sugar plantation located near the 
center of the island, close to Centerline Road. The property in 
question was not part of the Rockefeller donation, and is not 
encumbered by the reversionary clause that restricts the use of the 
Rockefeller properties to national park purposes. Though no formal 
survey has been done, the property is believed to contain fewer 
historic resources than other parts of the Estate. The property is near 
a road and other developments.
    During the past 14 years, the Government of the United States 
Virgin Islands and Virgin Islands National Park have discussed many 
proposals that would allow the Government of the Virgin Islands to 
construct a school on land currently owned by the National Park 
Service. These proposals have included an administrative land exchange. 
Though the Secretary of the Interior does have the authority to make 
minor boundary revisions of a unit of the National Park System through 
a land exchange, the Land and Water Conservation Act stipulates several 
conditions that must be met before the land is exchanged and the 
boundary is revised.
    The land gained in the exchange must be ``necessary for...the 
proper preservation, protection, interpretation, or management of an 
area of the national park system.'' Second, the total value of the land 
exchanged--the combined value of both the land added and the land 
deleted from the unit--must be less than $750,000. Though no formal 
determination has been made, a land exchange involving the 
Catherineberg Estate property does not appear to meet either of these 
criteria. The exchange does not appear necessary for the protection of 
the park, and it appears that the Estate land alone is likely to be 
worth more than $750,000.
    During the 109<SUP>th</SUP> Congress, Delegate Christensen 
introduced H.R. 272 to legislatively authorize a land exchange. The 
Department of the Interior did not take a position on H.R. 272.
    The Secretary does not have any other authority to allow the 
construction of a school on property owned and managed by the National 
Park Service. The 1998 National Parks Omnibus Act does give the 
Secretary the authority to lease buildings and associated property (16 
U.S.C. 1a-k), as long as the lease does not ``result in degradation of 
the purposes and values of the unit''. While public education is not in 
conflict with the purpose of Virgin Islands National Park, the 
construction of a complex of buildings appears to be in conflict with 
the direction given by the park's authorizing legislation, which 
states, ``The national park shall be administered and preserved by the 
Secretary of the Interior in its natural state...'' (70 Stat. 940).
    The National Historic Preservation Act gives the Secretary the 
authority to lease historic property, including historic buildings and 
historic lands, but only if the lease ``will adequately insure the 
preservation of the historic property'' (16 U.S.C. 470h-3). New 
construction of an education complex would not insure that the historic 
character of the land in question is preserved.
    Finally, the Land and Water Conservation Act authorizes the 
Secretary of the Interior to convey to a freehold or leasehold interest 
in lands within the national park system, but this authority does not 
apply to ``property within national parks'' (16 U.S.C. 460l-22(a)).
    That concludes my prepared remarks. I would be pleased to answer 
any questions you or other members of the subcommittee may have.
                                 ______
                                 
    Mrs. Christensen. Thank you, Acting Superintendent Bogle. I 
will now recognize my colleague Congressman Grijalva for five 
minutes.
    Mr. Grijalva. Thank you, Madam Superintendent. I appreciate 
your testimony, and I appreciated the tour today. Thank you 
very much.
    Ms. Bogle. It's my pleasure.
    Mr. Grijalva. Let me, you mentioned in your testimony a 
particular parcel in your written testimony. Let me ask you, 
how is that particular parcel currently managed? What is it 
used for? You mentioned a particular parcel in your testimony, 
in your written testimony. So my questions are, how is that 
parcel currently being managed?
    Ms. Bogle. It's a--I'm sorry, excuse me.
    Mr. Grijalva. Two parts. How is it being managed? What is 
it used for? And are there any buildings or other facilities on 
that particular parcel?
    Ms. Bogle. Currently that property is in a natural state. 
The only buildings would be ruins associated with the sugar 
plantation. The area that we're talking about, the ten acre 
track, seems to have had less of the historic property on it 
than other parts of the larger track, and it's managed in a 
natural state basically.
    Mr. Grijalva. And that is based on an inventory about the 
historical, cultural significance that is or isn't on that 
particular----
    Ms. Bogle. We haven't done a full inventory or a full 
survey of the lands to determine just how many artifacts, just 
how many historic structures are there. We haven't done a full 
survey.
    Mr. Grijalva. OK, is it removed from the National Park 
itself?
    Ms. Bogle. No, sir. It is part of national----
    Mr. Grijalva. Geographically it is not----
    Ms. Bogle. No, it is not geographically removed. It is 
about the center of the island. That's why we thought that it 
would potentially be a good place for a school when the park 
was discussing the possibility of a land exchange.
    Mr. Grijalva. And just finally, can you explain if there is 
a significance to the fact that the parcel that we're talking 
about is not covered by a reversionary clause that covers other 
land in the park.
    Ms. Bogle. The reversionary clause applies to the initial 
lands that were basically established in 1956 when the park was 
established. Laurance Rockefeller owned the land. And in that, 
he put a reversionary clause that said that at any time any of 
that land was used for anything but a park or for the public, 
basically a National Park, that it would revert back to the 
foundation.
    Mr. Grijalva. And so this parcel is covered or not covered 
by that clause?
    Ms. Bogle. It is not covered by that clause. It was added 
at a later date.
    Mr. Grijalva. Thank you. I don't have any more questions.
    Mrs. Christensen. Thank you, Mr. Grijalva. I just have a 
few questions. You said in your statement that for a transfer 
to be done administratively, the property shouldn't have a 
value of not more than $750,000. Do you know what the value--is 
there an estimated value of the property that you're talking 
about?
    Ms. Bogle. We haven't appraised it. I can tell you that 
that's for a minor boundary adjustment. There are certainly 
adjustments to boundaries all the time within national parks, 
but those require legislative authority to adjust boundaries. 
For a minor boundary adjustment, it has to be $750,000 or less.
    We haven't done an appraisal on this property. My guess 
with the acreage involved on St. John, my guess is it would 
appraise for over $750,000.
    Mrs. Christensen. I think that's a safe guess. Was any 
other parcel of land, as you review the history and the 
discussions that might have gone on between the Park Service 
and the Government of the Virgin Islands, are you aware of any 
other parcels of land that were a part of that discussion?
    Ms. Bogle. No, I'm not. But hang on just one second, if you 
will, let me confer. My technical expert, can you come up for a 
moment?
    Is that OK, Madam Chair?
    Mrs. Christensen. Sure.
    Ms. Bogle. He said that this piece of land was the only 
land that was looked at mainly because it was the center part 
of the island, relatively flat, would be fairly easy to 
develop, we thought, as well as the fact that we believe that 
the historic structures as part of the Catherineberg Estate, 
are not on the ten acres that were identified. So the 
archeological work would not be as stringent.
    Mrs. Christensen. Can you go ahead and state your name and 
position for the record?
    Mr. Boulon. My name is Ralph Boulon, Jr.
    Mrs. Christensen. My next question would be, also in your 
review of the discussions between the Park Service and the 
Government of the Virgin Islands, did the Government of the 
Virgin Islands indicate that they accepted this as a parcel of 
land that would be suitable for the school?
    Ms. Bogle. In my review of the files, it appeared that the 
Government of the Virgin Islands seemed to be willing to talk 
about that again for the same reasons that I expressed before. 
The concern with the exchange was again trying to find equal 
value of land for that.
    Mrs. Christensen. My last question, as you've stated in 
your testimony, the Park Service generally doesn't take a 
position on field hearings. But in your opinion, is there 
anything about H.R. 53 that goes against established Park 
Service policy that would likely lead the department and the 
service to oppose H.R. 53? Is there anything about policy as 
you read the bill that would likely lead to opposition?
    Ms. Bogle. There is no doubt that there is a dire need for 
a school on St. John. The only thing that I would see is that 
this would very possibly set a precedent for things of this 
sort happening, leases happening in the future elsewhere.
    Mrs. Christensen. Is there no precedent for a long-term 
lease of park property anywhere in the parks?
    Ms. Bogle. Not anywhere. There are historic leases which 
would be to maintain historic structures so that the Park 
Service benefits, and the public benefits, because the historic 
structures are maintained in the historic fashion. There are 
agricultural leases. And for that, say for example, in the Blue 
Ridge Parkway, we lease out land to keep for--we lease out land 
for hay fields, instead of us mowing them to keep the rural 
nature of the fields, people mow them for us. So, basically it 
is for the good of the public and the good of the National Park 
Service, but there is really not a precedent for a lease such 
as this.
    Mrs. Christensen. Well, wouldn't you consider this for the 
good of the public, the school?
    Ms. Bogle. The school is very good for the public, I agree.
    Mrs. Christensen. Thank you.
    Mr. Grijalva, did you have any other questions?
    Mr. Grijalva. No, I don't, thank you.
    Mrs. Christensen. Well, thank you, Acting Superintendent 
Bogle. You're excused, and I will call up the next panel.
    Ms. Bogle. Thank you.
    Mrs. Christensen. OK, I would like to recognize the second 
panel of witnesses and ask them to come up to the podium: The 
Honorable Leona Smith, the St. John Administrator; The 
Honorable Lisa Forde, the St. Thomas/St. John Superintendent of 
Schools; and The Honorable Carmen Miranda Wesselhoft, Senator-
at-Large of the 28<SUP>th</SUP> Legislature.
    The Chair now recognizes Administrator Smith to testify for 
five minutes.

STATEMENT OF THE HONORABLE LEONA SMITH, ST. JOHN ADMINISTRATOR, 
             GOVERNMENT OF THE U.S. VIRGIN ISLANDS

    Ms. Smith. Good evening, Honorable Donna Christensen, and 
members of the House Subcommittee on Insular Affairs. Thank you 
for the opportunity to appear before you in this setting to 
convey the views of the DeJongh-Francis administration as it 
regards H.R. 53. By the way of introduction, I am Leona Smith, 
a resident of St. John, and the appointed Administrator of this 
island.
    The Delegate's bill, H.R. 53, authorizes the Interior 
Secretary to enter into a long-term lease with the Virgin 
Islands Government to provide land on this island for the 
establishment of a school. As I am sure you will hear or have 
heard from other witnesses who will testify at tonight's 
hearing, the DeJongh-Francis administration wholly supports the 
legislation as a long-term lease would represent the less 
challenging option in securing the land that is necessary for 
the construction of a school on St. John. The administration 
looks forward to passage of the bill and subsequent 
negotiations toward identifying the most suitable location for 
the school's development. I cannot emphasize enough the need 
for the process to get underway in earnest that will lead to 
the construction of a new school on St. John.
    The residents of this island have for years commuted very 
early in the morning and very late at night to and from our 
neighboring island of St. Thomas to facilitate their children's 
attendance of high school, whether at private, parochial or at 
public institutions of learning. The construction of a new 
school would end this daily commute, one that is often 
challenged by inclement weather, rough seas and transportation 
snafus, for the many families who have made St. John their 
home.
    I will defer to the Acting Superintendent of Schools for 
the St. Thomas-St. John district, Lisa Hassell-Forde, to 
provide the panel with more details on the need to establish a 
school on St. John.
    I thank the Delegate and members of the House Subcommittee 
on Insular Affairs for the opportunity to convey the 
administration's position in full support of a long-term lease 
with the Virgin Islands National Park on St. John for the 
development of a school which will better serve the residents 
of this island.
    And Madam Chair, I will have Ms. Lisa Forde continue.
    [The prepared statement of Ms. Smith follows:]

    Statement of The Honorable Leona Smith, St. John Administrator, 
                 Government of the U.S. Virgin Islands

    Honorable Donna Christensen and members of the House Subcommittee 
on Insular Affairs, thank you for the opportunity to appear before you 
in this setting to convey the views of the De Jongh-Francis 
administration as regards H.R. 53. By way of introduction, I am Leona 
Smith, a resident of St. John and the appointed Administrator of this 
island.
    The Delegate's bill, H.R. 53, authorizes the Interior Secretary to 
enter into a long-term lease with the Virgin Islands Government to 
provide land on this island for the establishment of a school. As I am 
sure you will hear or have heard from other witnesses who will testify 
at tonight's hearing the DeJongh-Francis administration wholly supports 
the securing of the land that is necessary for the construction of a 
school on St. John. The administration looks forward to passage of the 
bill and the subsequent negotiations towards identifying the most 
suitable location for the school's development. I cannot emphasize 
enough the need for the process to get underway in earnest that will 
lead to the construction of a new school on St. John.
    The residents of this island have for years commuted very early in 
the morning and very late at night to and form our neighboring island 
of St. Thomas to facilitate their children's attendance of high school 
whether at private, parochial or at public institutions of learning. 
The construction of a new school would end this daily commute, one that 
is often challenged by inclement whether, rough seas and transportation 
snafus, for many families who have made St. John their home.
    I will defer to the Acting Superintendent of schools for the St. 
Thomas-St. John district, Lisa Hassell-Forde to provide the panel with 
more details on the need to establish a school on St. John. I thank 
Delegate and members of the House Subcommittee on the Insular Affairs 
for the opportunity to convey the administration's position in full 
support of a long-term lease with V.I. National Park on St. John for 
the development of a school which will better serve the residents of 
this island.
                                 ______
                                 
    Mrs. Christensen. Ms. Forde, we now recognize you.

              STATEMENT OF LISA FORDE, ST. THOMAS/
               ST. JOHN SUPERINTENDENT OF SCHOOLS

    Mrs. Forde. Good evening, Delegate Christensen, Committee 
Member Grijalva, and audience. My name is Lisa Forde. I'm the 
Insular Superintendent for the St. Thomas/St. John district.
    I'm here this evening to testify on the proposed land lease 
upon review of the proposed bill to authorize the Secretary of 
the Interior to enter into a long-term lease with the 
Government of the Virgin Islands and the island of St. John, 
with the ultimate end being a lease of land for the 
establishment of a school. The Office of the Insular 
Superintendent has attempted to research the possibilities and 
probabilities associated with this bill and the benefits which 
can be reaped from such a long-term lease.
    It is the opinion of the Office of the Insular 
Superintendent that clearly a school educational facility is 
needed that takes care of the needs of all of the students in 
the St. John district.
    Currently, there are two public school facilities, the 
Julius E. Sprauve School, which houses K-9 students, and the 
Guy Benjamin Elementary School which houses K-6.
    Because of the vast land spread on the island, these two 
public facilities currently educate 304 students, 240 in Cruz 
Bay and 64 in the Coral Bay area. The students in Cruz Bay 
receive services in regular education, gifted and talented, 
special education, school to work and career and technical 
education. In Coral Bay, students receive services in regular 
education. And all students at both sites are identified as 
individuals with varied needs and achievement goals.
    Students requiring a senior high education must be 
transported to St. Thomas to receive their education, as there 
are currently no public educational facilities on St. John for 
grades 10-12. This clearly places students at a disadvantage as 
they are forced to travel inter-island twice daily to receive a 
free and quality public education.
    A school facility to provide full services to all K-12 
students on the island of St. John is definitely needed. 
Students must be able to avail themselves to special education, 
vocational education, music education, scholarship 
consideration, JROTC participation, participation in sports, 
membership in competitive and travel clubs, as well as 
intervention strategies to which they have no access while they 
are on St. John.
    The St. Thomas/St. John Office of the Insular 
Superintendent is willing to partner with any entity and/or 
organization that has the best interest of our public education 
students in mind. My office looks forward to making the 
necessary moves to ensure that all students in the St. Thomas/
St. John district receive quality educational experiences that 
prepare them to be life-long learners and productive citizens 
within out global society. Thank you.
    [The prepared statement of Mrs. Forde follows:]

  Statement of Lisa A. Hassell-Forde, Government of the United States 
    Virgin Islands, Department of Education, Office of the Insular 
               Superintendent, St. Thomas, Virgin Islands

    Upon review of the proposed bill to authorize the Secretary of the 
Interior to enter into a long-term lease with the Government of the 
Virgin Islands on the island of St. John, with the ultimate end being a 
lease of land for the establishment of a school, the Office of the 
Insular Superintendent has attempted to research the possibilities and 
probabilities associated with this bill and the benefits which can be 
reaped from such a long-term lease.
    It is the opinion of the Office of the Insular Superintendent that 
clearly a school/educational facility is needed that takes care of the 
needs of all of the students in the St. John District. Currently, there 
are two public school facilities, the Julius E. Sprauve School, which 
houses K-9 students and the Guy Benjamin Elementary School which houses 
K-6 students. Because of the vast land spread on the island, these two 
public facilities currently educate 300 students, 240 in Cruz Bay and 
64 in the Coral Bay area. The students in Cruz Bay receive services in 
Regular Education, Gifted and Talented, Special Education, School to 
Work and the Career and Technical Education. In Coral Bay, students 
receive services in regular education and all students at both sites 
are identified as individuals with varied needs and achievement goals.
    Students requiring a senior high education must be transported to 
St. Thomas to receive their education as there are currently no public 
educational facilities on St. John for grades 10-12. This clearly 
places students at a disadvantage as they are forced to travel inter-
island twice daily to receive a free and quality public education. A 
school facility to provide full services to all K-12 students on the 
island of St. John is definitely needed. Students must be able to avail 
themselves of Special Education, Vocational Education, Music Education, 
Scholarship consideration, JROTC participation, participation in 
sports, membership in competitive and travel clubs, as well as 
intervention strategies to which they have no access while they are on 
St. John.
    The St. Thomas-St. John Office of the Insular Superintendent is 
willing to partner with any entity and/or organization that has the 
best interests of our public education students in mind. My office 
looks forward to making the necessary moves to ensure that all students 
in the St. Thomas-St. John District receive quality educational 
experiences that prepare them to be life-long learners and productive 
citizens within our global society.
                                 ______
                                 
    Mrs. Christensen. Thank you. The Chair now recognizes the 
Senator-at-Large, The Honorable Carmen Wesselhoft.

 STATEMENT OF THE HONORABLE CARMEN MIRANDA WESSELHOFT, SENATOR-
     AT-LARGE, 28TH LEGISLATURE OF THE U.S. VIRGIN ISLANDS

    Ms. Wesselhoft. Thank you, and good evening Delegate 
Christensen, members of the Subcommittee on Insular Affairs, 
staff and all concerned St. Johnians gathered here for this 
important hearing. I am Carmen Wesselhoft, the Senator-at-
Large, and I am a proud native-born St. Johnian, but I'm 
especially concerned about St. John issues and the pressing 
need for a new school.
    I am very pleased that we are going forward on this issue 
today or tonight, and we truly must all work together to see 
the construction of this new school through. Thanks to Delegate 
Christensen's Office and all those involved in organizing this 
meeting.
    The need to relocate Julius Sprauve School is clear to all 
of us, as is the need for a high school here on St. John. The 
school was once conveniently located at the center of town, but 
now that the town of Cruz Bay has grown exponentially, it is no 
longer an optimal location for students. It is noisy, there is 
no room for expansion, little parking and there are danger 
zones all around the campus.
    Just this March a truck lost its brakes and rammed a car 
into the school's crosswalk, ending up hanging over the 
school's ball field. There is a great deal of traffic 
surrounding the school on all sides. We have heavy drinking 
taking place just across the street from morning until night. 
It is not an environment that is especially conducive to 
learning.
    I would like to see a new school include both a high school 
and some kind of vocational training program. We do have a high 
school on St. John, but it is a private school and tuition is 
out of reach for most residents. Students drop out every year, 
I believe partly because of the frustration of traveling to St. 
Thomas each day for their classes. Good students are motivated 
to make the trip, but it doesn't take much to discourage those 
young people already at-risk.
    Construction of a new school would allow the Virgin Islands 
Government to reassign the property at Sprauve School for other 
purposes.
    Our need for a fire station is well known as is the lack of 
youth and senior centers. We are also in need of a centrally 
located government complex. Land on St. John is certainly at a 
premium and I will push for the campus to continue to be used 
for the greater public good. I wholeheartedly support the good 
intentions behind H.R. 53. One question I ask, though, why 
can't this land be given outright to the people of St. John?
    Construction of a new school has been stymied by the lack 
of available and affordable land on St. John, but so has 
construction of affordable housing, a nursing home, a fire 
station and recreational facilities for our young people. The 
skyrocketing cost of property on St. John, this has put home 
ownership out of reach of many, if not most, St. Johnians.
    Some change is inevitable and there is certainly a new 
culture being developed here on St. John, but it is time we 
took some significant steps toward making homeownership more 
feasible. The most significant step we could take and the only 
real remedy at this point is for the Virgin Islands National 
Park to transfer some land back to the people of this 
Territory.
    I love the park. It has been a tremendous blessing in terms 
of keeping our island serene and beautiful. I cannot imagine 
St. John without the park and the significant land it protects. 
It has been a tremendous tourist attraction and has created 
many jobs and opportunities for Virgin Islanders. St. John is 
the gem of the Caribbean largely because of the National Park.
    But when Rockefeller created what is known as the National 
Park, he said that it was never to bring hardship to the people 
of St. John. Well, today it has created a hardship in terms of 
lack of land for a school, for a new basketball court, for a 
fire station, for a senior center, for housing, for 
homeownership, and for local families. The National Park owns 
two-thirds of St. John or approximately 9,000 acres. If even 
just 200 of these acres, if even just 200 of these acres were 
returned to the people of St. John, we could greatly relieve 
this hardship for decades to come.
    Just a couple hundred acres out of 9,000 could make all the 
difference in the world to young St. Johnians and those older 
St. Johnians who would like to return home but cannot. I am 
confident we could do this without jeopardizing the beauty or 
ecology of the Virgin Islands National Park.
    If we do not take steps to make land available for 
infrastructural improvements and homeownership now and work 
toward building and stabilizing a shrinking middle class, I 
truly fear for the future of St. John. We must make our voices 
heard in Washington. If we all unite, I am confident we can 
find creative ways to resolve the lack of developable land 
without further disenfranchising St. Johnians.
    I truly hope that you will take my words under 
consideration. I know that untold numbers share my sentiments 
and I hope we can move forward in giving back a small portion 
of land to St. Johnians.
    I ask for the Committee members' support for any efforts to 
assist in the construction of a new school on St. John, and I 
stand ready to offer any local legislation that may be 
necessary to facilitate this process. I thank you.
    [The prepared statement of Ms. Wesselhoft follows:]

    Statement of Carmen Wesselhoft, Virgin Islands Senator-At-Large

    Good Evening to Delegate Christensen, the members of the 
Subcommittee on Insular Affairs, staff and all the concerned St. 
Johnians gathered here for this important hearing.
    My name is Carmen Wesselhoft and I am the Virgin Islands Senator-
At-Large. This is my first term in office and I was sworn in on January 
8 of this year. Although I represent constituents throughout the 
Territory, I am a proud native born St. Johnian and I am especially 
concerned about St. John issues and the pressing need for a new school.
    I am very pleased that we are going forward on this issue today as 
we truly must all work together to see the construction of this new 
school through. Thanks to Delegate Christensen's Office and all those 
involved in organizing this meeting.
    The need to relocate Julius Sprauve School is clear to all of us. 
As is the need for a high school here on St. John. The school was once 
conveniently located at the center of town, but now that the town of 
Cruz Bay has grown exponentially it is no longer an optimal location 
for students. It is noisy, there is no room for expansion, little 
parking and there are danger zones all around campus. Just this March a 
truck lost it breaks and rammed a car into the school's crosswalk, 
ending up hanging over the school's ballfield. There is a great deal of 
traffic surrounding the school on all sides. We have heavy drinking 
taking place just across the street from morning until night. It is not 
an environment that is especially conducive to learning.
    I would like to see a new school include both a high school and 
some kind of vocational training program. We do have a high school on 
St. John, but it is a private school and tuition is out of the reach 
for most residents. Students drop out every year partly because of the 
frustration of traveling to St. Thomas each day for their classes. Good 
students are motivated to make the trip, but it doesn't take much to 
discourage those young people already at risk.
    Construction of a new school would allow the Virgin Islands 
Government to reassign the property at Sprauve School for other 
purposes. Our need for a fire station is well known, as is the lack of 
youth and senior centers. We are also in needed of a centrally located 
Government complex. Land on St. John is certainly at a premium and I 
will push for the campus to continue to be used for the greater public 
good.
    I wholeheartedly support the good intentions behind H.R. 53, but I 
do have some concerns.
    The information I was provided with did not provide specific 
information as to the plot size and location of the land in question 
and I am hoping this will be addressed in the course of this hearing.
    The question that many St. Johnians are asking is whether or not 
there is some legal reason why we must lease this land from the Federal 
Government? Why can't this land be given outright to the people of the 
St. John? What purpose does a 90 year lease serve?
    Construction of a new school has been stymied by the lack of 
available and affordable land on St. John, but so has construction of 
affordable housing, a nursing home, a fire station and recreational 
facilities for our young people. The skyrocketing cost of property on 
St. John and this has put home ownership out of the reach of many, if 
not most, young St. Johnians.
    No matter how flexible the terms or low the interest rate may be, 
no one making $33,000 a year--and that is about what the average Virgin 
Islander earns--can afford a mortgage on a million dollar home. Prices 
do go up and property values will increase, but local salaries have not 
risen to match the rise in prices of homes and land on St. John. Prices 
have primarily been driven up by outside investors who have made their 
money elsewhere. There is a growing gap between the haves and the have 
nots here on St. John and, at this point, the Federal Government is the 
only entity with the power and the land to ameliorate some of these 
concerns.
    We as a community have attempted to respond by creating affordable 
housing opportunities at Bellevue and soon at Calabash Boom. This is 
not enough. And I do not think our people should be relegated to solely 
living in ``affordable housing communities''. They should have the 
opportunity to purchase land at a reasonable price and to build a home 
of their own preference and style.
    There are those newcomers among us who have been heard to say that 
if St. Johnians cannot afford to live on St. John, they should move to 
St. Croix or St. Thomas. This is insulting and unacceptable. Our 
families are being broken apart. Our culture and our traditions lost.
    Some change is inevitable and there is certainly a new ``culture'' 
being developed here on St. John, but it is time we took some 
significant steps towards making homeownership more feasible. The most 
significant step we could take and, the only real remedy at this point, 
is for the Virgin Islands National Park to transfer some land back to 
the people of this Territory.
    I love the park, it has been a tremendous blessing in terms of 
keeping our island serene and beautiful. I cannot imagine St. John 
without the park and the significant land it protects. It has been a 
tremendous tourist attraction and has created many jobs and 
opportunities for Virgin Islanders. St. John is the gem of the 
Caribbean, largely because of the National Park.
    But there is always a flipside. All those people coming from 
outside that fell in love with the beauty of the park have driven up 
real estate prices. All the land held by the park has made little 
available for growth. All those tourists have altered our way and 
quality of life.
    When Rockefeller created what is now known as the Virgin Islands 
National Park he said that it was never to create a hardship for the 
people of St. John. Well today it has created a hardship in terms of 
lack of land for a school, for a new basketball court, for a fire 
station, for a senior center, for housing and for homeownership for 
local families.
    The National Park owns 2/3s of St. John or approximately 9,000 
acres. If even just two hundred of these acres were returned to the 
people of St. John, we could greatly relieve this hardship for decades 
to come.
    I know that some may find this idea controversial, but what is the 
alternative? I propose that this Committee undertake a feasibility 
study in this regard. The park is bringing in hundreds of thousands of 
visitors, yet there is not adequate land available to host the services 
and employees needed to serve these guests. A detailed plan would have 
to be crafted whereby established families would have first opportunity 
to purchase this land and be required to hold on to it for a specified 
number of years. It wouldn't be easy, but it can be done.
    When the National Park was created, Virgin Islanders did not have a 
strong voice in national affairs and there was certainly a different 
standard in terms of racial relations and politics back in 1956. Things 
have changed in the world, things have changed on St. John and it is 
time that we demand that changes are made to better accommodate our 
people.
    Just a couple of hundred acres out of over 9,000 could make all the 
difference in the world to young St. Johnians and those older St. 
Johnians who would like to return home, but cannot. I am confident we 
could do this without jeopardizing the beauty or ecology of the Virgin 
Islands National Park.
    If we do not take steps to make land available for infrastructural 
improvements and homeownership now and work towards building and 
stabilizing our shrinking middle class, I truly fear for the future of 
St. John. No one is immune from the social and economic crisis being 
created here.
    We must make our voices heard in Washington. If we all unite I am 
confident we can find creative ways to resolve the lack of developable 
land, without further disenfranchising St. Johnians.
    I truly hope that you will take my words under consideration. I 
know that untold numbers share my sentiments and I hope we can move 
forward in giving back a small portion of land to St. Johnians.
    I ask that Committee members support any efforts to assist in the 
construction of a new school on St. John and I stand ready to offer any 
local legislation that many be necessary to facilitate this process.
    Thank you.
                                 ______
                                 
    Mrs. Christensen. Thank you, Senator. And the applauds were 
restrained at least two points in your testimony and I know 
what you said definitely reflects the sentiment of many in the 
audience.
    I will now recognize Mr. Grijalva for such questions as he 
may have.
    Mr. Grijalva. Thank you, Madam Chair. If I may, Madam 
Senator, a couple of questions just for my background. The trip 
that students must take to St. Thomas for high school, how long 
is that?
    Ms. Wesselhoft. Well, if you take into consideration, sir, 
you have some students that live on the eastern end of the 
island, they must get up probably about 4:30 in the morning to 
catch the school bus, take the 6:00 o'clock ferry to Red Hood. 
The ferry ride is about 20 minutes. Most of them attend school 
on the eastern end of St. Thomas. So, it could take anywhere 
just in travel an hour, two hours just to get across the ocean 
one-way. And then travel back late in the evening to get back. 
You have homework. You have other things to do at home.
    Mr. Grijalva. Thank you. And you mentioned in your 
testimony tuition to private school. How high is that tuition?
    Ms. Wesselhoft. We have a private school on St. John, and 
the tuition, if you don't get a scholarship, could range 
anywhere from $350 and even higher, $550, and even higher.
    Mr. Grijalva. Per month.
    Ms. Wesselhoft. Per month.
    Mr. Grijalva. I would assume that price takes a lot of 
people out of that opportunity.
    Ms. Wesselhoft. Definitely.
    Mr. Grijalva. If a suitable parcel was to be leased, direct 
transfer, whatever, as that process moves along, do you know 
what the estimated cost, Senator, is for the construction of 
those facilities and the funding available if it is available?
    Ms. Smith. Probably over $3 million to construct a school.
    Ms. Wesselhoft. It's probably more than $3 million and up. 
Because I don't know if you realize but St. John, the cost of 
living is very high. To build on St. John is very, very costly. 
So it could range anywhere, I believe, double $3 million and 
up. Anywhere from $10 million and up it could cost.
    Mrs. Forde. Those are conservative estimates considering 
that if we were to build a facility on St. John, we wouldn't 
want a half done facility. We want to make sure that it had an 
auditorium that could take care of public use, as well as 
school use. You would want a gymnasium facility so that the 
children have all sports advantages that other schools have 
been afforded in other islands in the territory.
    Mr. Grijalva. You would want a comprehensive high school.
    Mrs. Forde. Yes. And not just a high school. Recognize that 
we're talking a K-12 education.
    Mr. Grijalva. Thank you. And if I may, Superintendent, you 
mentioned in your testimony, and I appreciate that comment, 
keeping the public education students in mind as we go through 
this process, and you mentioned a partnership with entities 
that sub. Elaborate how you see that partnership, and 
Administrator Smith as well.
    Mrs. Forde. I think it's important for us to understand 
that education cannot exist on its own. We know that for 
education to be successful, we have to partner with the 
Legislature. We have to partner with private entities, 
businesses. There are corporations. There are community groups. 
If we are to be successful, we have to pull all entities in. 
And we're willing to do that. We don't intend to be an insular 
education. We intend to make use of all partners who are 
willing to provide service, goods, expertise, so that we can 
build quality education in the Virgin Islands again.
    Ms. Smith. I concur with Ms. Forde.
    Mr. Grijalva. Thank you. Madam Chair, I don't have any 
further questions. Thank you.
    Mrs. Christensen. Thank you, Mr. Grijalva. I would like to 
get a couple of things on the record. Administrator Smith, 
thank you for your support of the bill and the intention on the 
lease. Would you know if the administration supports the 
position, and Senator Wesselhoft, have you had that discussion 
with them that a reference to a lease, they would prefer a 
conveyance or an outright conveyance of land?
    Ms. Smith. I really don't have that knowledge at this 
moment.
    Mrs. Christensen. OK. And this is not the end of the 
discussion. So we can follow-up with you and the administration 
on that issue.
    Ms. Forde, in your testimony you talked about the number of 
students attending school on St. John, and in other testimony 
the estimates have been 700 students traveling to 1,000 
students traveling from St. John to attend school in St. 
Thomas. Do you have a number on the number of students that 
leave St. John every day?
    Mrs. Forde. No, but recognize that these are the students 
that attend school in St. John. We know that to attend Eudora 
Kean High School between eleventh and twelfth grade we've got 
conservatively 60 to 70 students traveling daily. We also have 
students from the St. John community that attend private 
schools in St. Thomas, and that number I don't have available.
    But we do know that it's enough that if you attend school 
in the St. John district, if you live in the St. John district, 
you should be able to attend school in the St. John district 
comfortably. And if you make the choice to attend school in St. 
Thomas, that's a choice. It shouldn't be that it has to be a 
travel for these children every day.
    Mrs. Christensen. I totally agree with you on that, the 
need for a school, period. But just for the record, I wanted to 
know if we had an accurate number of the students that travel. 
But certainly it does present a hardship as described by the 
Senator, getting up that early in the morning and having to 
travel across the island and then the ferry and so forth and so 
on. It's difficult enough just as if they were attending school 
here.
    The other question I would have for you, Ms. Forde, is the 
10 acres suitable, in your estimation and the estimation of the 
department, do you have any idea what the acreage is of the 
larger school that we have in the St. Thomas/St. John district?
    Mrs. Forde. No, I don't have that information. Ten acres 
would be conservative in my guess. If we're going to put a full 
service facility, 10 acres is conservative. If you're going to 
put something here, you're going to want a state-of-the-art 
gymnasium; you're going to want a track and field that the 
children can run on, that they can practice on and prepare for 
competitive meets stateside; you're going to want classrooms 
where we can put comfortably 30 children in a classroom and 
they are not hitting elbows against each other; that we've got 
computer drops in the classrooms for these children; that there 
are cafeterias where the children can eat and we don't have to 
jam them into lunch hours.
    What we want is a vision for education. Ten acres can do 
it. We can make do with that, but certainly I think we would 
want to double that number if we wanted to put a full fledge 
facility in St. John.
    Mrs. Christensen. For example, Eudora Kean, do you have any 
idea what the acreage is?
    Mrs. Forde. No, I have no idea. But we also recognize that 
with Eudora Kean, we're sharing land with Housing, Parks, and 
Rec. So----
    Mrs. Christensen. Right, I understand that.
    And Senator Wesselhoft, are there any current measures in 
the 27<SUP>th</SUP> Legislature addressing any school related 
issues on St. John?
    Ms. Wesselhoft. Not that I know of, Delegate Christensen. 
And if I may, just for the record, just to clarify what you 
said, I'm not against the land lease.
    Mrs. Christensen. I understand.
    Ms. Wesselhoft. I'm hoping that one day that the National 
Park will recognize our needs and start giving us something as 
opposed to us having to enter into a lease. And even if we do a 
lease, it will be lease to own eventually. So, I'm in full 
support of it.
    Mrs. Christensen. I understand. But for the record, because 
this is the official record of the Congress, we just want to 
make sure that we're clear on all of the opinions that are 
being voiced here. And I'm clear that you support the lease, 
but that you also would support an outright conveyance.
    I don't have any other questions. Do you have any other 
questions, Mr. Grijalva? Is there anything else that was left 
unasked that you would like to add before we dismiss you?
    Ms. Smith. Madam Chair, I would like to see this come to 
fruition. We've been speaking about the school situation for 
the last 30 years.
    Mrs. Christensen. Yes.
    Ms. Smith. So, we would really like to see it come to 
fruition.
    Mrs. Christensen. I think that's the bottom line and as 
quickly as possible.
    So, thank you for your testimony, and I would now like to 
call up the last panel which is a relatively large panel of 
witnesses.
    Mrs. Christensen. OK, the next panel consists of Ms. 
Lorelei Monsanto--as they are coming up, if there is room on 
the bench in which you're sitting, if you would just move over 
a little it would allow our individuals who are still standing 
to have a place to sit.
    So, Ms. Monsanto, Mr. Ronnie Jones of Unity Day Group, Ms. 
Kristen Cox of the One Campus Group, Mr. Gaylord Sprauve, Mr. 
Joe Kessler, President of Friends of the Virgin Islands 
National Park, and former Senator-at-Large, Craig Barshinger.
    OK, thank you. We will begin this panel by recognizing Ms. 
Monsanto for five minutes. Ms. Monsanto of the One Campus 
Group.

       STATEMENT OF LORELEI C. MONSANTO, ONE CAMPUS GROUP

    Ms. Monsanto. Good evening, distinguished guests, Members 
of Congress and our Delegate to Congress Donna Christensen and 
other guests and the audience. I am Lorelei Monsanto, a St. 
John resident and member of One Campus Group. I would like to 
thank you in advance for the opportunity to give my 
presentation to the Committee on Natural Resources on H.R. 53, 
also known as the Virgin Islands National Park School Lease 
Act.
    St. John has no doubt been changed by the existence of the 
National Park Service. I do believe the various agencies that 
support the park and its growth will support this initiative to 
acquire lands to demonstrate a team effort to educate the local 
populous of students that reside on St. John.
    I would like to give a brief history. Number one, the 
overall population of students on St. John in both the private 
and public sector is approximately 700 students and growing 
with a rash of development on the island.
    Two, the current educational complexes on the island of St. 
John are crumpling, dark, located in congested areas and have 
outgrown their overall usefulness.
    Three, due to lack of land space on St. John and overall 
planning for the future, we are at a point where our partner, 
Jackson Hole Foundation, the Rockefeller Foundation, Friends of 
the National Park, students, parents and all concerned groups 
on the island of St. John, have recognized that we must become 
team players in this venture.
    Four, the private sector has established a school on St. 
John that clearly states a need for K-12 on the island. Their 
location is quite hilly and provides some difficulties in 
expansion and diversification.
    However, we're talking about the public school sector here. 
My group, the One Campus Group, have done several studies and 
investigations. One, we found that Laurance Rockefeller donated 
lands with a special stipulation that lands be held to enhance 
the local population on the island of St. John. Our Delegate to 
Congress was advised by a Mr. Clayton Frye, Jr. On November 10, 
2006 that Jackson Hole Preserve retains no property that might 
be suitable for such a purpose, and finds that they didn't own 
any land on the island. Investigation reveals that they 
liquidated a good portion of that property and disregarded Mr. 
Rockefeller's wishes.
    Two, discussion of swapping local Virgin Islands' land and/
or cays with the National Park Service in 2006 raised a high 
public outcry against such an action.
    Three, Ms. Ethel Bishop died March 2006. She conveyed a 
deed to the United States National Park in 1968. That parcel is 
known as No. 6 Estate Catherineberg, and it consists of 55 
acres of land, more or less, and it is not subject to any 
reversionary clause. The National Park Service noted that this 
is just one of several land parcels managed by the National 
Park Service that has this condition. However, based on the 
location, this parcel seems to be the best location for the 
project that we are now considering, and we did send to you a 
copy of her death certificate and a deed of conveyance.
    Four, the opportunity will provide the most educational 
venture the National Park System, Virgin Islands and Congress 
has ever seen. St. John's needs are truly unique, and this 
joint venture will enable the National Park Service and the 
Department of Education to construct a school complex that adds 
a Marine Biology, Botany, National Park Service Mid-island 
Visitor's Center and Educational Complex, all under one 
environmental friendly environment.
    It is my belief that this request for a lease will enhance 
the overall position on the National Park Service and the 
Virgin Islands. With the goal of incorporation of National Park 
Service programs and the educational programs, the 
possibilities are limitless. An investigation on leasing 
National Park lands now exist in the Park system.
    Preservation of the Bishop home, educating the students 
with National Park Service programs, advising the visitors of 
how St. John and this co-adoption enhances the knowledge power 
of kids' learning both inside and outside the classroom will be 
mind-boggling.
    The bill, H.R. 53, is an excellent solution to the 
educational goals. I do have a few suggestions, however, that 
might enhance the bill. I would request the Secretary of 
Interior request that a volunteer school board be set up to 
work with the National Park Service on this plan.
    Also, I would like the school to be designed by a certified 
school design group with an environmentally friendly design so 
that we can co-exist with the National Park's mandate and our 
own. I would clearly like to request the entire 55 acres of the 
Bishop land.
    And four, intent with the formation of the National Park 
Service, to be designated for such a purpose.
    In conclusion, I know that this bill will become a reality. 
We will forge ahead to make this a reality. We will lobby, we 
will call you, we will harass you, we will do whatever it takes 
to make this happen. Thank you again for hearing this 
testimony. Respectfully yours, Lorelei Monsanto.
    [The prepared statement of Ms. Monsanto follows:]

               Statement of Lorelei Monsanto, One Campus

    Good Evening distinguished Members of Congress and our Delegate to 
Congress Donna Christensen and other distinguished guests and audience.
    I am Lorelei Monsanto, a St. John resident and member of the One 
Campus group. I Would like to thank you in advance for the opportunity 
to give my presentation to the Committee on Natural Resources on H.R. 
53, also known as the ``Virgin Islands National Park School Lease 
Act''.
    St. John has no doubt been changed by the existence of the National 
Park Service. I do believe the various agencies that support the park 
and its growth will support this Initiative to acquire lands to 
demonstrate a team effort to educate the local populous of students 
that reside on St. John.
Brief History:
    1.  The overall population of students on St. John in both the 
private and public sector is proximately seven hundred students and 
growing with the rash of development on the island.
    2.  The current educational complexes on the island of St. John are 
crumpling, dark, located in congested areas and have out grown their 
overall usefulness. (see Photos)
    3.  Due to lack of land space on St. John and overall planning for 
the future we are at a point where our partners, Jackson Hole 
Foundation, Rockefeller Foundation, Friends of the National Park, 
Students, Parents and all concerned groups on the island of St. John 
have recognized that we must become team players in this venture.
    4.  Private sector has established a school on St. John that 
clearly states for a need for a K-12 on the island. Their location is 
quite hilly and provides some difficulties in expansion and 
diverication.
Investigation:
    1.  Laurance Rockefeller donated lands with a special stipulation 
that lands be held to enhance the local population on the island of St. 
John. Our Delegate to Congress was advised be a Mr. Clayton Frye Jr. on 
November 10, 2006 that Jackson Hole Preserve retains no properties that 
might be suitable for such a purpose, and find that we do not at this 
time own any land on the island. Investigation reveals lands were 
liquidated with an apparent disregard for Mr. Rockefeller's wishes. 
(See attachment)
    2.  Discussion of swapping local Virgin Island land and or cays 
with the National Park Service in 2006 raised a HUGE PUBLIC OUTCRY 
against such an action.
    3.  Mrs. Ethel May Bishop died March 2006. She conveyed a deed to 
the United States National Park in 1968. That parcel, known at Number 6 
Estate Catherineberg, consists of fifty-five (55) acres of land more or 
less and is not subject to any reversionary clause. The NPS noted that 
this is just one of several land parcels managed be the National Park 
Service that has this condition. However based on location this parcel 
seems to be the best location for the project we are now considering. 
(Death certificate and deed of conveyance attachment)
    4.  This opportunity will provide to me the most educational 
venture in the NPS and Virgin Islands and Congress. St. John needs are 
truly unique and this joint venture will enable the National Park 
Service and the department of Education to construct a school complex 
that adds marine biology, botany, National Park Service Mid-island 
Visitor's Center and educational complex all under one environmental 
friendly environment.
Overview:
    It is my belief that this request for a lease will enhance the 
overall position on the National Park Service and The Virgin Islands. 
With the goal of incorporation NPS programs with the Educational 
programs the possibilities are limitless. And investigations on leasing 
NPS land now exist in the Park system.
    Preservation of the Bishop home, educating the student with NPS 
programs, advising the visitors to St. John how this co-adoption 
enhances the knowledge power of kids learning both inside and outside 
of the classroom
    The bill, H.R. 53, is an excellent solution to the educational 
goals. I have a few suggestions that might enhance the bill: 1. that 
the Secretary Interior request that a volunteer school board be set up 
to work along with the NPS on this plan. 2. Design of the school is 
done by a certified school design group with environmental friendly 
design. 3. Clear request of 55 acres of the land. 4. It was the intent 
with the formation of the NPS that an area be designated for such a 
purpose.
    In conclusion, I know that this bill will become a reality. We are 
ready to forge ahead to make this a reality.
    Thanking you again for having this hearing respectfully yours 
Lorelei Monsanto
                                 ______
                                 
    Mrs. Christensen. Thank you, Ms. Monsanto. The Chair now 
recognizes Mr. Jones for five minutes.

           STATEMENT OF RONNIE JONES, UNITY DAY GROUP

    Mr. Jones. Good evening. My name is Ronnie Jones. I am 
honored to be here today. Thank you, Congresswoman Donna 
Christensen, and all the Committee members and everyone else 
that's here with us today listening. Again, I am honored to be 
a witness in regard to H.R. 53.
    I was born on the island of St. John and I've seen many 
changes take place. Most of these changes have been positive, 
mainly because they relate to population growth.
    I come from a very large family. My grandfather was Halvor 
Richards, born on April 15, 1896, on the island of St. John. He 
had 18 children. My grandfather had brothers and sisters, but 
the most prominent was Julius E. Sprauve.
    Halvor was a foreman with the Civilian Conservation Corps 
in 1938 on St. John. The CCC Program or Civilian Conservation 
Corps Program, employed many St. Johnians and helped to 
maintain the structure of the island, especially our roads. He 
eventually purchased Estate Susannaberg in 1945 and ended his 
time on this earth on St. John in 1970 as a successful farmer.
    Julius C. Sprauve was an advocate for the people of St. 
John. He was a Councilman and eventually the first Senator of 
St. John. Julius helped St. Johnians get their first bank, 
better roads and much needed employment opportunities in the 
1930's. Julius left the legacy of community service, but his 
most, far-reaching accomplishment was helping Laurance 
Rockefeller convince the Department of Interior that the 
National Park was a good thing for everyone involved.
    This collaboration happened before I was born, and the 
results are evident today as over 5,000 acres is still 
preserved for our future. The 3,000 acres that was left for the 
families and friends of Julius, and the friendly inhabitants 
encountered by Mr. Rockefeller and Mr. Stit (phon.) has greatly 
diminished in the past 71 years.
    Families have continued to grow and many visitors have 
decided to stay. I attended Julius C. Sprauve School 43 years 
ago, and today our island has outgrown it.
    The acquisition of the National Park in 1936 has reduced 
the exploitation of St. John. The families connected to that 
era are pleased, but the children of this era have little 
options in regard to land space. We need a secured and safe 
area for which conducive learning could be produced and provide 
opportunities for vocational and athletic programs.
    Julius C. Sprauve convinced the Department of Interior and 
the local people to present their lands for preservation in 
1936. We, today in 2007, have our Delegate to Congress, Donna 
Christensen, and her constituents trying to convince the 
Department of Interior that to allow the Virgin Islands to 
lease land for a school would be in the best interest of the 
entire island and its inhabitants.
    In 1936, the people and the Department of Interior even 
after some opposition, did what was right for the future good 
of the Virgin Islands and the people that come here.
    We are asking the Department of Interior to consider the 
needs of our children, and just as in 1936, there will be 
opposition, but be aware that the people of St. John will be 
following this bill and with deep conviction of the right and 
wrong, Bill H.R. 53 works for our children. Thank you for your 
consideration.
    [The prepared statement of Mr. Jones follows:]

               Statement of Ronnie Jones, Unity Day Group

    I am honored to be a witness in regard to bill H.R.53. I was born 
on the Island of St. John and I have seen many changes take place. Most 
of these changes have been positive, mainly because they relate to 
population growth. I come from a very large family. My grandfather was 
Halvor Neptune Richards, born on April 15, 1896 and he had 18 children.
    My grandfather had brothers and sisters but the most prominent was 
Julius E. Sprauve. Halvor was a foreman with the Civilian Conservation 
Corps. in 1938 on St. John. The C.C.C. program employed many St. 
Johnians and helped to maintain the structure of the Island especially 
our roads. He eventually purchased, Estate of Susannaberg in 1945 and 
ended his time on earth in 1978 as a successful farmer.
    Julius E. Sprauve was an advocate for the people of St. John. He 
was a Councilman and eventually the first Senator of St. John. Julius 
help St. Johnian's get their first bank, better roads and much needed 
employment opportunities in the 1930's. Julius E. Sprauve left a legacy 
of Community Service but his most far reaching accomplishment was 
helping Laurence Rockefeller and Frank Stick convince the Department of 
Interior that a National Park was a good thing for everyone evolved.
    This collaboration happened four years before I was born in 1936, 
and the results are evident today as over 5000 acres is still preserved 
for our future. The 3000 acres that was left for the family and friends 
of Julius, and the friendly inhabitants in countered by Mr. Rockefeller 
and Mr. Stick, has greatly diminished in the past 71 years. (1936-2007 
Families have continued to grow and many visitors have decided to stay. 
I attended Julius E. Sprauve School 48 years ago and today our island 
has out grown it.
    The acquisition of the National Park in 1936 has reduced the 
exploitation of St. John. The families connected to that era are 
pleased, but the children of this era have little options in regards to 
land space. We need to secure a safe area of which would be conducive 
to learning and provide opportunities for vocational and athletic 
programs.
    Julius E. Sprauve convinced the Department of Interior and the 
local people to present their land for preservation in 1936, we today 
in 2007, have our Delegate to Congress Donna Christensen and her 
constituents trying to convince the department of Interior, that to 
allow Virgin Islanders to lease land for a school would be in the best 
interest for the entire island and its inhabitants. In 1936 the people 
and the Department of Interior (even after some opposition), did what 
was right for the future good of the Virgin Islands and the people that 
come here.
    We are asking the Department of Interior to consider the needs of 
our children and just as in 1936 there will be opposition, but be aware 
that the people of St. John will be following this bill with deep 
conviction of right and wrong. Bill H.R.53 works for our children.
    Thank you for your consideration.
                                 ______
                                 
    Mrs. Christensen. Thank you, Mr. Jones. And the Chair now 
recognizes Ms. Cox for five minutes.

           STATEMENT OF KRISTEN COX, ONE CAMPUS GROUP

    Ms. Cox. Good evening to the House of Representatives' 
Committee on Natural Resources, Delegate to Congress Donna 
Christensen, and members of the panel. I am Kristen Cox, Co-
Chairperson of the One Campus Group on St. John.
    The 14 years that I have been residing on St. John, I have 
watched the schools become deplorable. I have heard, read and 
been told about our local government being involved in ongoing 
negotiations to work on finding, locating, and obtaining land 
to build a new public school for the community of St. John.
    The conditions that our children are being taught and the 
intrusive environment of that of our teaching staff, have 
surrendered to noise pollution, and the dilapidating, unsafe 
conditions of the building is simply just unjust. We have made 
do with the situation because we have not had any choice in the 
matter, and it's time that we make a safe, comfortable 
environment for our children, staff and the community in our 
schools.
    I am asking the panel to bring the bill, H.R. 53, forth in 
the House of Representatives on behalf of the Virgin Islands 
with the Virgin Islands National Park's signing a lease with 
the Virgin Islands Government to obtain and be part of a team 
network, building a new state-of-the-art K-12 school, with a 
vocational center that will be utilized by the children of St. 
John, community organizations, and offer opportunities for any 
persons wanting to further education is very important.
    We want to assist and provide, through this complex, and 
incorporate the National Park Service, in educating and 
mentoring the children of St. John, the community and tourists 
from abroad.
    We live in the 21st Century and our children need to be 
technologically competitive in this growing world we live in. 
Unless all of our children are all born naturally A-plus 
students and excel in every subject while attending grades K-
12, the rate we are going, we are falling behind in the 
competitive world and we do not want to revert to functional 
illiteracy in the Virgin Islands. Our children are being left 
behind and are continuing to regress and the community is now 
becoming filled with criminals and are not being educated in a 
competitive level as the Iowa test results demonstrate each 
year, as does our drop-out rate at 40 percent this year.
    The island of St. John resident children are about 1,000 
students plus or minus, divided between public, private schools 
and home school students from grades K-12. Our drop-out rate is 
increasing yearly, as our crime rate and our homicide rate 
between the ages of 16 and 25, obtained through the Daily News.
    My vision for St. John's future school is three separate 
buildings, elementary, middle and high school, computers in 
each classroom, one central library, an athletic park with ball 
field, track and field, soccer, footfall, swimming pool, 
basketball court, tennis court, gymnasium with gymnastics, 
exercise gym equipment, a vocational learning center that 
combines existing facilities elsewhere with the United States, 
and the skills of teachers, researchers, the National Park 
Service, to educate, share information on marine biology, 
ecology, farming, science, communications, business management, 
auto mechanic, EMT, FEMA, Red Cross, Public Works. There is a 
long list where we can go with this.
    I now want to work together and be as successful as a team 
and Leave No Child Behind, all the sentiments that we've 
expressed, the deed, conveyance, death certificates, what the 
National Park has given us as reasons why this land in 
Catherineberg will work for a school, we are asking for 55 
acres. We need 55 acres to be competitive in today's world for 
a state-of-the-art complex.
    I hope that you will push this bill through the House of 
Representatives so this lease can be procured, and remember, we 
Leave No Children Left Behind.
    I thank all of you for hearing our testimony this evening.
    [The prepared statement of Ms. Cox follows:]

          Statement of Kristen Cox, Co-Chair, One Campus Group

    Good Evening:
    To The U.S. House of Representatives on the Committee on Natural 
Resources, Delegate to Congress Donna M. Christensen, and Members of 
the panel.
    I am, Kristen Cox, Co-Chair person of the One Campus Group on St 
John, I am a mother, an aunt, a cousin, a friend, and I am someone who 
cares about our children and the future of our community and 
opportunity for the local residents of St John.
    I am here before you today to testify why St John needs a new K 
through 12 School on St John.
    The Fourteen years that I have been residing on St John I have 
watched the schools become deplorable. I have also heard, read and have 
been told that our local Government has been involved in ongoing 
negotiations to work on finding a location and obtaining land to build 
a new public school for the community of St John.
    The conditions our children are being taught and the intrusive 
environment that our teaching staff has surrendered to noise pollution 
and dilapidating unsafe conditions of our buildings is simply unjust. 
We have made due with what we have because we have not had a choice in 
the matter. It is time the Virgin Islands Department of Education is 
held accountable for the lack of follow through and responsibility to 
our local Government to make sure our schools are safe and comfortable 
for our children, staff and the community.
    I am asking for your panel to bring this bill forth in the House of 
Representatives. The Virgin Islands National Park signing a lease with 
the Virgin Islands Government to obtain and be part of a Team network, 
building a new state of the art K through 12 school with a vocational 
center that will be utilized by the children of St John, Community 
organizations and offer opportunities for any persons wanting to 
further their education.
    We want to assist and/or provide through this complex and 
incorporate the National Park Service in Educating and mentoring the St 
John children, our community and tourists from abroad.
    We live in the 21st Century and our children need to be 
technologically competitive in this growing world we live in. Unless 
ALL of our children are born naturally A+ students that excel in every 
subject, while attending grades K through 12, the rate we are going the 
U.S. Virgin Islands will revert to adult functional Illiteracy. Our 
children are being left behind and are continuing to regress and the 
community is now becoming filled with delinquents and criminals because 
they are not being educated at a competitive level as the Iowa test 
results demonstrate each year as does our drop our rate.
    The island of St. John resident children are about 1,000 students 
+/- divided up between public and private schools in grades K through 
12. Our drop out rate is increasing yearly as is our crime rate and our 
homicide rate of ages 16 through 25. The poverty and low income level 
residents and our population is growing. We need change and the 
foundation for any change begins with education.
    We have an opportunity to change history and make the difference we 
have been waiting for. The One Campus Group wants to work together to 
accomplish a common goal of well educated students for a positive 
future, join hands with those who have, will and want to make a 
difference in the future of; the National Park Service of the U.S. 
Virgin Islands, Friends of the National Park of the Virgin Islands, The 
Rockefeller Foundation, The Jackson Hole Preserve, the Government of 
the Virgin Islands, the Department of Education of the Virgin Islands 
and incorporate the following in a State of the Art Education Complex 
far superior to any other in the Virgin Islands and the Caribbean 
abroad.
    My Vision of what St John's future School needs are as follows:
    1.  3 Separate buildings on One Campus for Elementary, Middle and 
High school.
         *Computers in each class room (1 for each student) OR each 
        building be equipped with a Computer Lab.
    2.  One central Library
    3.  Athletic Park with Ball field (base ball, Track & Field, 
Soccer, Football, etc), Swimming pool, Basket ball court, Tennis court, 
Gymnastics, Gym with exercise equipment, etc.
    4.  A Vocational Learning Center that combines existing facilities 
elsewhere in the United States with the skills of teachers, researchers 
and the National Park Service to educate and share information on: 
marine biology, ecology, farming, science, communications, business 
management, wood working, auto mechanics and restoration, port 
authority, coast guard, EMT, FEMA, Red Cross, public works, etc.
    I know we can work together and will be successful as a team and No 
Child will be Left Behind. Refer to: Exhibit A, Exhibit B, Exhibit C, 
Exhibit D, Exhibit E and Exhibit F why we can start building our new 
future together today.
    I hope that you will push this bill through the House of 
Representatives so this Lease can be procured and remember we leave No 
Child Behind.
    Thank you for your time.
    [NOTE: The exhibits submitted for the record have been retained in 
the Committee's official files.]
                                 ______
                                 
    Mrs. Christensen. Thank you, Ms. Cox, and I will now 
recognize Mr. Kessler for five minutes.

             STATEMENT OF JOE KESSLER, PRESIDENT, 
                  FRIENDS OF VI NATIONAL PARK

    Mr. Kessler. Thank you. The Friends of Virgin Islands 
National Park welcome the esteemed members of the Subcommittee 
to St. John. You honor our island and our park by your 
presence. We are pleased that you are holding these field 
hearings here so that you have the opportunity to hear from the 
entire community on the proposed legislation. We hope these 
hearings and ensuing discussions will move resolution of this 
important issue forward.
    The Friends is a non-profit membership based organization 
that is dedicated to the preservation and protection of the 
natural and cultural resources of Virgin Islands National Park 
and promotes the responsible enjoyment of this national 
treasure.
    Concerning the proposed Virgin Islands National Park School 
Lease Act, H.R. 53, the Friends, along with nearly everyone 
else as you've heard today, recognize the absolute need to 
relocate the current schools from their cramped, inappropriate 
and dangerous locations, and to expand the facilities to 
include 10-12 so that the island's children do not have to 
leave St. John to attend public high school.
    The need for new educational facilities is not in question. 
It is real, it is urgent, and it must be made a high priority 
for the territorial government and this community. However, 
where to locate the new facility, what it should realistically 
include, how to build it, how to finance it, how to maintain 
it, and how to staff it are the real questions. These hearings 
address the key issue of the first question: How the required 
land for the new facility is to be acquired. We trust that the 
other issues will be dealt with in due course.
    Prior to the introduction of H.R. 53, three alternatives to 
acquire land for a new facility were being considered: The V.I. 
Government would either allocate land that it already owned; 
purchase sufficient land; or swap land with the National Park 
Services.
    However, as the territorial government does not own 
sufficient land on St. John and large parcels are generally 
difficult to find and prohibitively expensive if they were to 
be located, discussion centered on a land swap between the 
territorial government and the National Park Service.
    The Friends has strongly supported the concept of the swap 
and believe that we have played a key role in urging the 
National Park Service to be open and flexible in considering 
this possibility. This contributed to the NPS in February 2003, 
providing the V.I. Government with a list of properties which 
is comprised of land on St. John, small uninhabited offshore 
islands and even submerged lands that in some combination can 
be considered in exchange for land for a school within Virgin 
Islands National Park. The list was not exclusive and was meant 
to initiate concrete discussions on the issue. The proposal has 
languished since then.
    While we support swapping land, we have fundamental 
concerns and misgivings about providing V.I. National Park land 
to some sort of long-term lease arrangement as proposed by this 
legislation.
    Let's be frank. Depending on the terms and conditions of 
the lease, the arrangement is the de facto sale or gift of the 
property to the V.I. Government. It will result in the net loss 
of National Park property and resources. Clearly, this land 
will never revert to being park land.
    The National Park Service is in the forever business. It is 
legally mandated to preserve unimpaired the natural and 
cultural resources and value of the National Park System. In 
this case, Virgin Islands National Park is for the enjoyment, 
education and inspiration of this and future generations. 
Without question, this legislation would diminish, and 
therefore impair the natural and cultural resources of the 
Virgin Islands National Park.
    Furthermore, and perhaps more troubling, it will set a 
precedent that would in turn threaten national parks throughout 
the country. We wouldn't dream of selling off or giving away 
parts of Yosemite or Grand Canyon National Parks, nor should we 
sell or give away a part of Virgin Islands National Park, 
especially since it's a viable and preferable alternative.
    An exchange or swap of land remains, in our view, the most 
viable alternative. And in addition, an exchange could happen 
in a relatively short time if there is the institutional and 
political will to make it a reality.
    We appreciate and understand the concerns of some members 
of the community toward what is perceived as giving up 
additional lands to the National Park Service. Land is always 
an emotional issue, and passion about land does not run any 
deeper than it does here in the Virgin Islands. However, the 
underlying principle of a land exchange, or a swap, is that 
there is a give and there is a get. When two pieces or parcels 
of equally valued land are exchanged, both parties give up 
something and both parties get an equal share back in return.
    While the National Park Service is willing to exchange land 
for the benefit of St. John's children, we must be clear, it is 
not a win-win situation. Aside from perhaps garnering some 
community goodwill and the satisfaction accrued from helping 
solve a community problem, the NPS has nothing whatsoever to 
gain from a land swap. The only beneficiaries of the land 
exchange that will provide for a new school are the children of 
St. John.
    In conclusion, we reiterate our position that H.R. 53 is 
not in the best interest of the people of St. John, the 
American public in general, nor the National Park Service. H.R. 
53 will diminish, and therefore impair the natural and cultural 
resources of this beautiful National Park. And because of the 
precedent it sets, H.R. 53 threatens all national parks and 
Americans enjoyment of these natural, cultural and historic 
treasures.
    Further, we ask this subcommittee, and particularly it's 
Chairwoman, to use your influence to encourage the V.I. 
Territorial Government and the National Park Service, to enter 
into serious deliberations to exchange land for a school. The 
children of St. John deserve an immediate and concerted effort 
to resolve this impasse.
    Thank you for affording me the opportunity to offer this 
testimony.
    [The prepared statement of Mr. Kessler follows:]

                 Statement of Joe Kessler, President, 
                Friends of Virgin Islands National Park

    The Friends of Virgin Islands National Park (Friends) welcomes 
these field hearings on the proposed Virgin Islands National Park 
School Lease Act (H.R. 53) and we are pleased that you are here to hear 
from this community on the proposed legislation. We hope that these 
hearings and the ensuing discussions will help move resolution of this 
important issue forward.
    As President of the Friends I testify before you representing the 
3,612 members of this organization. About 20% of our members are from 
the Virgin Islands and we are also proud to have members hailing from 
all 50 states, as well as twelve foreign countries. Members of the 
Friends are bound together by our love for Virgin Islands National 
Park, our commitment to the preservation and protection of the natural 
and cultural resources of the Park, and our appreciation of what the 
Park means for St. John and all of the Virgin Islands.
    Our appreciation is based on the conviction that because of VI 
National Park St. John is a world class tourist destination, a unique 
and safe place to live, and it enjoys considerable prosperity. St. John 
is a prosperous little island. Prosperous in the context of the Virgin 
Islands and prosperous in the context of the Caribbean:
    <bullet>  St. John has one of the highest per capita incomes in the 
Caribbean;
    <bullet>  St. John has the highest rate of private home ownership 
in the Caribbean; and,
    <bullet>  Just about anyone on St. John who wants a job can find 
one--particularly in the hospitality industry, with retail businesses, 
or in the building trades. Just witness the hundreds of people who 
arrive every morning from St. Thomas to work here.
    We really have the Park to thank for this. In addition to the 
people of St. John--it is the Park that makes this island so special! 
Furthermore, the Park is what drives the prosperity of this island; a 
2004 study demonstrated that VI National Park generated more than $127 
million in annual sales and 2,500 jobs in the Virgin Islands.
    Concerning the proposed Virgin Islands National Park School Lease 
Act (H.R. 53):
    The Friends, along with nearly everyone on St. John, recognizes the 
absolute need to relocate the current schools from their current 
cramped, inappropriate and dangerous locations; and expand the 
facilities to include grades 10-12 so that the island's children do not 
have to leave St. John to attend public high school.
    The need for new educational facilities is not in question--it is 
real, it is urgent, and must be made a high priority for the 
territorial government and this community. However, where to locate the 
new facility, what it should realistically include, how to build it, 
how to maintain it, and how to staff it are the real questions. These 
hearings address the key issue of the first question: how the required 
land for a new facility is to be acquired. We trust that the other 
issues will be dealt with in due course.
    Prior to the introduction of H.R. 53, three alternatives to acquire 
land for a new educational facility were being considered:
    <bullet>  The VI Territorial Government would allocate land that it 
already owned;
    <bullet>  The VI Territorial Government would purchase sufficient 
land; and/or,
    <bullet>  The VI Territorial Government would swap land with the 
National Park Service.
    However, as the territorial government does not own sufficient land 
on St. John and large parcels are generally difficult to find and 
prohibitively expensive if they were to be located, discussion centered 
on a land swap between the territorial government and the National Park 
Service.
    The Friends has strongly supported the concept of the swap and we 
have played a key role in urging the National Park Service to be open 
and flexible in considering this possibility. This contributed to the 
NPS, in February 2003, providing the VI Government a list of properties 
(comprised of land on St. John, small uninhabited offshore islands and 
submerged lands) that in some combination could be considered in an 
exchange for land for a school within VI National Park. This list was 
not exclusive and was meant to initiate concrete discussions on the 
issue. This proposal has languished since then.
    While we support swapping land we have fundamental concerns and 
misgivings about providing VI National Park land through some sort of 
long-term lease arrangement as proposed by this legislation.
    Let's be frank; depending on the terms and conditions of a long-
term lease, the arrangement is the de facto sale or gift of this 
property to the VI government and will result in the net loss of 
National Park property and resources. Clearly, this land will never 
revert to being parkland.
    The National Park Service is in the ``forever business''. It is 
legally mandated to: ``preserve unimpaired the natural and cultural 
resources and values of the national park system [in this case, Virgin 
Islands National Park] for the enjoyment, education and inspiration of 
this and future generations'. Without question, this legislation would 
diminish, and therefore impair, the natural and cultural resources of 
VI National Park.
    Furthermore, it will set a precedent that would in turn threaten 
national parks throughout the country. We wouldn't dream of selling off 
or giving away parts of Yosemite or Grand Canyon national parks, nor 
should we sell or give away a part of VI National Park. This should not 
be given serious consideration, since there is a viable and preferable 
alternative.
    An exchange, or swap, of land remains the most viable option as it 
is allowable under existing NPS policy and does not require any new 
authorizing legislation, and there are properties that the NPS would 
accept in such an exchange. In addition, an exchange could happen in a 
relatively short time, if there is the institutional and political will 
to make it a reality.
    We appreciate and understand the concerns of some members of the 
community towards what is perceived as giving up additional lands to 
the NPS. Land is always an emotional issue and passion about land does 
not run any deeper than here in the Virgin Islands. However, the 
underlying principle of a land exchange, or swap, is that there is a 
``give'' and a ``get''--two pieces (or combination of pieces) of 
equally valued land are exchanged. Both parties give up something and 
both get an equal share back in return.
    However, we must be clear: this is not a ``win-win'' situation. 
Aside from perhaps garnering some community goodwill and the 
satisfaction accrued from helping solve a community problem, the NPS 
has nothing to gain from a land swap--yet they are willing to go ahead 
with it. The only beneficiaries of a land exchange that will provide 
for a new school are the children of St. John. I suggest that we all 
look at the bigger picture and envision this island's children growing 
up, learning, and playing in a modern educational facility located in a 
peaceful environment conducive to learning.
    In conclusion, we reiterate our position that H.R. 53 is not in the 
best interests of the people of St. John, the American public in 
general, nor the National Park Service. H.R. 53 will diminish, and 
therefore impair, the natural and cultural resources of this beautiful 
national park; and, because of the precedent it sets, H.R. 53 threatens 
all national parks and Americans' enjoyment of these natural, cultural 
and historic treasures.
    Further we ask this subcommittee, and particularly it's Chairwoman, 
to use your influence to encourage the VI Territorial Government and 
the National Park Service to enter into serious deliberations to 
exchange land for a school. The children of St. John deserve immediate 
and concerted efforts to resolve this impasse.
    Thank you for affording me the opportunity to offer this testimony.
                                 ______
                                 
    Mrs. Christensen. Thank you, Mr. Kessler. The Chair now 
recognizes Mr. Sprauve for his testimony.

                  STATEMENT OF GAYLORD SPRAUVE

    Mr. Sprauve. First of all, good evening. I am Gaylord A. 
Sprauve. I'm a resident of the U.S. Virgin Islands with long 
established family relationships on the island of St. John.
    As a youngster and later as a teenager, I was privileged to 
be in the company of my siblings and other relatives as we 
roamed across the landscape hunting and collecting bait for 
fishing around the islands and cays that surround the main 
island of St. John. We enjoyed the land and we enjoyed the sea 
that was all around us. We did this before there was ever a 
National Park in our midst and we enjoyed our experiences 
without restrictions other than those that were self-imposed.
    Though not schooled in the science or art of conservation 
or preservation, we employed our own sense of what amounted to 
appropriate behavior in the treatment and care of our ecology. 
We did so keeping in mind that others will follow in our 
footsteps who would want to enjoy the same precious experiences 
that were ours. Those happy, joyful, pleasant memories remain 
in my consciousness today.
    It was in the mid-1950's when we realized a National Park 
would come to St. John. With limited or no experience with such 
an endeavor, many of us witnessed, while standing silently on 
the sideline, as our cultural upbringing dictated, while senior 
heads of our families sold off their lands for the purpose of 
what would become the Virgin Islands National Park. Little did 
senior heads of our families, and even those of us coming of 
age realize that we knew very little about what was entailed in 
having a National Park on St. John and what it meant for the 
future of the homeland. As the park developed, St. John was 
rediscovered, and over time was transformed forever into what 
it is today, with the scarcity of affordable land for the 
resident population, to build individual homes or adequate land 
reserved by the government for important public programs and 
services. H.R. 53, as proposed by Delegate Christensen, is an 
acknowledgement of the contention that our leaders failed to 
plan adequately for the future needs of our school-aged 
population and the larger St. John community. H.R. 53 attempts 
to address the most vexing problem of acquiring a site upon 
which to construct an educational, cultural and recreational 
complex that would satisfy not only the immediate need of 
moving the school or schools, but also the future needs of St. 
John as envisioned by the people of St. John, in consultation 
with their government leaders.
    Conceptually, I support this major step by the Delegate. 
The land lease that H.R. 53 proposes is the third option of 
those that I suggested in an August 7, 2006 guest opinion in 
our local Daily News, following a public announcement that the 
then, Governor Charles Turnbull, was proposing a land swap with 
the Virgin Islands National Park that included several of St. 
John cays.
    In my rebuttal to the Governor's proposed land swap, I 
called his announcement premature and suggested that we seek 
congressional assistance with our plight in the form of an 
outright grant of the acreage required to accomplish the 
desired public purposes of such a grant. Alternatively, I 
suggested a use permit for a number of years and possibly into 
perpetuity. The lease option, the subject of H.R. 53 was my 
third option. I hope that whichever option is approved by 
Congress will be one that is negotiated for no more than a 
nominal fee and, therefore, economically feasible for the local 
government.
    Once again, I take this opportunity to commend Delegate 
Christensen for her leadership and vision in this matter. I 
hope that she is successful in having this legislation adopted. 
Thank you.
    [The prepared statement of Mr. Sprauve follows:]

                   Statement of Gaylord A. Sprauve, 
                  Resident of the U.S. Virgin Islands

    I am Gaylord A Sprauve. I am a resident of the U.S. Virgin Islands 
with long established family relationships on the island of St. John. 
As a youngster and later as a teenager, I was privileged to be in the 
company of my siblings and other relatives as we roamed across the 
landscape hunting and collecting bait for fishing around the islands 
and cays that surround the main island of St. John. We enjoyed the land 
and we enjoyed the sea. We did this before there was ever a National 
Park in our midst and we enjoyed our experiences without restrictions 
other than those that were self-imposed. Though not schooled in the 
science or art of conservation or preservation, we employed our own 
sense of what amounted to appropriate behavior in the treatment and 
care, of our ecology. We did so keeping in mind that others would 
follow in our footsteps who would want to enjoy the same precious 
experiences that were ours. Those happy, joyful, pleasant memories 
remain in my consciousness today!
    In the mid-1950s, we realized that a National Park would come to 
St. John. With limited or no experience with the introduction of such 
an endeavor, many of us witnessed, while standing silently on the 
sideline as our cultural upbringing dictated, as senior heads of our 
families sold off their lands for the purpose of what would become the 
Virgin Islands National Park. Little did the senior heads of our 
families and even those of us coming of age realized what the creation 
of a National Park on St. John entailed and what it meant for the 
future of the homeland. St. John was soon rediscovered and over time 
was transformed forever into what it is today-with a scarcity of 
affordable land for the resident population to build individual homes 
or adequate land reserves by the government for important public 
programs and services.
    H.R. 53 as proposed by Delegate Christensen is an acknowledgement 
of the contention that our leaders failed to plan adequately for the 
future needs of our school-aged population and the larger St. John 
community. H.R. 53 attempts to address the most vexing problem of 
acquiring a site upon which to construct an educational and cultural 
complex that would satisfy not only the immediate need of moving the 
school or schools, but also, the future needs of St. John as envisioned 
by the people of St. John, in consultation with their government 
leaders.
    Conceptually, I support this major step by the Delegate. The land 
lease that H.R. 53 proposes is the third option of those that I 
suggested in an August 7, 2006 Guest Opinion in our local Daily News, 
following a public announcement that the then, Governor Charles 
Turnbull was proposing a land swap with the Virgin Islands National 
Park that included several of St. John cays.
    In my rebuttal to the Governor's proposed land swap, I called his 
announcement premature and suggested that we seek congressional 
assistance with our plight in the form of an outright grant of the 
acreage required to accomplish the desired purposes of such a grant. 
Secondarily, I suggested a use permit for a number of years and 
possibly on into perpetuity. The lease option, the subject of H.R. 53 
was my third option. I hope that the option approved by Congress will 
be one for no more than a nominal fee and therefore, economically 
practical for the local government.
    Once again, I take this opportunity to commend Delegate Christensen 
for her leadership and vision on this matter.
                                 ______
                                 
    Mrs. Christensen. Thank you, Mr. Sprauve for that very 
moving testimony.
    Our last person to testify on this panel is former Senator 
Craig Barshinger. And we recognize you for five minutes.

         STATEMENT OF CRAIG BARSHINGER, FORMER SENATOR

    Mr. Barshinger. Thank you, Delegate Christensen. Welcome to 
the members of the Committee, all those who are here to 
support, and the many St. Johnians of our beloved and 
beautiful, diverse St. Thomas community.
    Delegate, you asked a little while ago about legislation. 
Senator Hill has in place a bill that provides for the Virgin 
Islands Government to interface with this. Anticipating this, I 
introduced legislation in the 26<SUP>th</SUP> Legislature for 
drafting, and turned it over to Senator Hill when I left on 
January 8<SUP>th</SUP>. It's all there. We were hoping that the 
previous administration would work on it and it seems that it's 
now in this administration under your leadership that we're 
really going to go forward.
    I would like to tell the Committee something about St. 
John. St. John and the Virgin Islands National Park is, indeed, 
a beautiful place. But when you think of St. John, you have to 
realize it's not the blue waters and green hills that make it 
valuable. It's the people who live here, and the history, the 
story that goes with it.
    From back in the 1700's we have a rich history and a 
culture. There is nothing you can do as stewards of the 
National Park that is a greater investment than to partner with 
us in educating our youths.
    By our very success as the National Park, our community is 
beleaguered. You have heard that you cannot really buy land on 
St. John. Let me put that into perspective. A young man or 
woman growing up on St. John today cannot reasonably hope to 
purchase a home. It's about $1 million for the home. We are in 
trouble and we need some help from the National Park Service, 
Department of the Interior, and ultimately the Congress.
    So, although I'm a businessman at heart and believe in a 
quid pro quo, if we are to have a lease, and that lease was to 
be for $1.00 a year for 15 acres or 100 acres, it would be a 
good deal for the people of the United States, because in 
return, they would get an opportunity to strengthen the culture 
of St. John, which, as I said, is what makes this such a 
valuable park.
    It's not just the land, but it's the way we use the land, 
the way we interact, the way we sail, the way we go fishing for 
yellow-tail. All the things that we do in this park, the 
history. And if we don't have a good educational system, we are 
not able to offer that vital communication to those people who 
visit this park.
    As far as exchanging, I'm a little dismayed that there has 
been some talk about an even exchange of land. While I cannot 
say that it's not appropriate to exchange things of equal 
value, I have to ask you, what is the comparison between some 
generally featureless land, as the Acting Superintendent Martha 
Bogle has pointed out, and maybe an exchange of stewardship for 
something on Congo Cay where the park could get petroglyphs. 
Isn't it true that just one small highly important historical 
site might be worth many acres of flat land where we could 
build a school? Think about that in your negotiations. Don't 
allow yourself to miss the opportunity to partner with St. John 
in our educational quest by insisting on unreasonable 
exchanges.
    We have so much to offer in terms of our people, our 
culture, and also certain sites where perhaps you would like to 
be in the business of being stewards for them. But certainly we 
cannot find 55 or 100 acres, but we can find intensely valuable 
sites that if you would be willing to be custodians, that 
certainly would be something that is reasonable to discuss, but 
please don't be unreasonable. We don't want to be back here 
five years from now, ten years. We want to invite you five 
years from now for the big party as we cut the ribbon on our 
new educational complex.
    My time is coming to an end, so I'll just tell you that 
students sense how serious we, as adults are, about their 
education and future.
    Right now, I hope you have a chance to tour what we have on 
St. John. It's insufficient. Many of our social problems will 
be healed if we can show the students that we are fighting for 
them as we are beleaguered by the 1.2-plus million visitors to 
our shores every years.
    We need your help in making sure that St. John can deal 
with the changes. And the way you can help us best is to help 
us by giving us the land we need in order to make a school 
complex which is state-of-the-art. Not 10 acres, not 20 acres, 
but enough in the range of 50 acres will allow us to do it 
right. Architecturally we can make it something you will be 
very proud of, but we need your help, and I ask the Delegate 
and all from the committee to assist us. Thank you very much.
    Mrs. Christensen. I want to thank all of the panelists for 
their testimony. And now, I would like to recognize Mr. 
Grijalva for such questions that he might have.
    Mr. Grijalva. Thank you, Madam Chair, and I will be brief. 
Let me begin with Ms. Monsanto. Can you just for background 
again, can you give me a breakdown of the 700 students roughly 
from John, roughly grade level? I'm also interested in how that 
separates, as you mentioned it, between public students and 
private students.
    Ms. Monsanto. What I did is I incorporated public and 
private school students who live on St. John and traverse back 
and forth and also attend school on St. John. So you're not 
only looking at students who go to the public school right now. 
You have to look at those high school students who go to St. 
Thomas. You have to look at the private sector who also goes to 
St. Thomas for school for educational benefits. So, we 
encompassed that number. That's the number we came up with 
roughly.
    Mr. Grijalva. Do you then see this campus that we're 
talking about to serve both populations?
    Ms. Monsanto. Yes, because ultimately the population on the 
east end of St. Thomas is also saturated. That school is full 
to capacity.
    Mr. Grijalva. The assumption being that the private school 
students would then come back to a public school.
    Ms. Monsanto. Hopefully, yes.
    Mr. Grijalva. Because it would be a public facility.
    Ms. Monsanto. Correct.
    Mr. Grijalva. And Mr. Kessler, you mentioned--Mr. Jones, if 
I may. Mr. Jones, if I may, thank you for the historical 
context in which--the background that you gave us.
    When Mr. Rockefeller made the decision the two-thirds of 
the land on St. John will be given as a National Park, but 
correspondently as you mentioned, there was also a commitment 
to the people of St. John as part of that process. And to 
answer some of the issues of precedence, which I think is a 
question that needs to be dealt with, is there any, in that 
historical record or in that historical contents, educational 
opportunities for children of St. John? Was that part of the 
consideration in that transfer?
    Mr. Jones. Sir, the specifics of it, we have here in front 
of us from a letter to Senator Anderson from L.S. Rockefeller, 
September 13, 1962, which speaks specifically to the Jackson 
Hope, consideration and acreage that were laid out. We have 
Estate Bellevue, 101 acres; Estate Beverthouberg, 265.6 acres. 
These are the properties that were spoken about to be used for 
the betterment of the island, for the people. But as Ms. 
Monsanto discussed earlier, when she went back to Jackson Hope 
Preserve, they said that that land was no longer in existence.
    So, more specific as to what Mr. Rockefeller meant when he 
said for the betterment of the community, frankly, I personally 
never envisioned the need for condemnation from the earliest 
days of acquiring the land of the Virgin Islands, as well as 
throughout the discussions leading to the Park in 1956. I have 
felt and I have said I was not in favor of condemnation. I 
don't have the specifics as to what he meant broadly, but I 
understand that when the Senator, which is Mr. Julius C. 
Sprauve, my great uncle, when he looked at the island, he was 
looking at the island at that time as what would be a good deal 
for--as his relative, another cousin of mine on the table 
stated, that we didn't have the bigger vision.
    When I was 18 years old, I always said that one day as we 
continue to grow, without not understanding how the National 
Park worked, I always said, one day the National Park would 
have to give us pieces and pieces of its land, because as our 
people grew and our population grew, what do we do? Do we just 
pack up and leave and then say only tourists can come and look 
at an island that people used to inhabit? So, at some point I 
always figured that it would be a reasonable thing as 
population grew. And these were the people who are from here, 
that you would make room for us to grow and to live on the same 
island.
    And to add to that, when people come here, people come here 
to talk to the people. They come to talk to us. They want to 
hear me say, ``Hey mon, fry fish and johnny cake today.'' They 
don't come to see some deers running around in some bush. They 
come to see that, plus hear me speak or hear my family speak. 
Other than that, they tell us all the time, if I want to get an 
American experience, I stay in America. They come here for us.
    Mr. Grijalva. And your point is well-taken, because the 
tradition where I come from is that there is a deep and abiding 
historical and cultural bond between the land and the people, 
and the originators of that land. So, yes, I couldn't agree 
with you more.
    Mr. Kessler, you mentioned the issue of the swap and the 
precedence, which I think, as we go through this process, that 
needs to be dealt with. But given the parcel that we talked 
about, that is being talked about today, is there specific 
concerns that the Friends have related to that parcel and the 
leasing of that parcel? How would that impact the Park?
    And maybe, if I could for the record, Madam Chair, we've 
been dealing with a 10-acre discussion here, but also 
repeatedly from the witnesses, we are dealing with a 55 acre 
discussion, and we could reconcile that by information as to 
why the Park Service is dealing with 10, when consistently 
we've heard of 55. Maybe we can get that from the Park Service, 
OK?
    Mr. Kessler. OK. To your first question, Friends has no 
problem at all with the land that's been proposed for a swap, 
the land that's been proposed as being suitable for some sort 
of interaction to provide for an educational facility.
    If I could on the issue of the 10 versus 55 or whatever, 
and this is more of a personal observation, there hasn't been 
any sort of consensus as to what this facility would actually 
include, what the land would actually be used for other than a 
school. And certainly, as part of the process of determining, 
one, how much land is really required, is the process of 
planning out whatever this facility will be, and whatever other 
ancillary services or structures or activities that would 
happen on there, and also what's feasible, we have to look, 
one, how much land is potentially available; how much it will 
cost to develop that into some sort of facility; how much money 
is going to be available to do it. And then we have to also 
deal with all of the other problems that the current education 
services in the Virgin Islands has to face, which is how do you 
maintain it? How do you staff the facility?
    Mr. Grijalva. Thank you.
    Mr. Kessler. Those issues need to be dealt with, and I have 
every confidence they will be dealt with within the community, 
with extra assistance. Those things need to be determined. You 
just can't pull out a figure and say, well, we need 55 acres or 
even we need 10 acres.
    And again, the Friends has been supportive of the swap, and 
think that the land that has been identified is appropriate in 
terms of a location.
    Mr. Grijalva. The issue to you is the mechanism.
    Mr. Kessler. The issue to us is the lease. The lease is a 
de facto sale or gift to the property, a precedent that was set 
for National Parks throughout the country.
    Mr. Grijalva. And let me just follow up with a 
hypothetical. I don't know how to phrase this question, but I 
was asking Mr. Jones and the One Campus representatives about 
the history of the Rockefeller, the context, the historical 
context. And as I understand from them, from their testimony 
and from answering the question, there was an intent on the 
part of Rockefeller to, as part of the process, there would be 
a net public benefit for the people of St. John and your point 
regarding the precedence of a lease and what effect that could 
have across the National Park Service system nationally in the 
territory.
    So, is that an either/or proposition, giving the intent and 
giving the issue of the precedence.
    Mr. Kessler. Well, the intent was also--the Jackson Hall 
Preserve owned lots of land on St. John, in addition to the 
land that was donated to the Department of the Interior for the 
creation of Virgin Islands National Park, and over time, they 
sold off that property.
    I have no further information than what was provided by the 
other testifiers, and I'm certainly happy to accept their 
understanding of it, but we do have Virgin Islands National 
Park created initially from the 5,000 acres donated by Jackson 
Hall Preserve. Another 2,800 acres have been acquired and added 
in the last 50 years. So, we have some--or 1,800 acres.
    Mr. Grijalva. I appreciate it, Mr. Kessler. Thank you for 
responding to my question. Sir, you wanted to respond, Mr 
Jones.
    Mr. Jones. In relation to helping you get the perspective 
on the 10 acres, the administration before under Governor 
Turnbull, we had an administrator by the name of Julien Harley, 
and he had gathered a group of people together when the first 
options were coming up of the swap and so forth. And at the 
time, given the size of the island and the population, they 
came up with--and they weren't looking at a full complex. They 
were looking at a basic school. And they came up--that's why 10 
acres came up and that's what the National Park had started 
moving with.
    But as we look at the school now, the potential for a 
school now, and as the school administrator spoke a minute ago, 
and she talked about a full campus, that's not throwing 
something out of the hat. You can look at any school in the 
United States and know what a full campus is. And a full campus 
is more than 10 acres. And we have groups here now who have 
already started the process of identifying the cost, the exact 
size. They are not throwing out 55 acres like throwing it out 
of a hat. It's just that our organization on St. John hasn't 
all yet come together to get the consensus, but we know the 
average of a full campus with a gymnasium and all the other 
avenues, and we're also asking the National Park to 
participate, because they have programs that can help our 
culture in educating people that come here, that they can use 
that facility to benefit the community also. But still, we 
haven't all come together on what we're trying to do. That's 
why we're honoring the Delegate on what she's doing, because 
the first thing we have to do is get the land.
    Mr. Grijalva. Madam Chair, I have no further questions, 
thank you. I yield back.
    Mrs. Christensen. Thank you, Mr. Grijalva. And if you do 
have a question as we go along, I will yield to you again. 
Thank you.
    Let me begin with--I'll ask Ms. Monsanto, because you first 
raised the issue of the 55 acres. Can you speak to the 
typography of those 55 acres? I assumed that 10 were singled 
out because the land is suitable. It is flat. It is more 
easily--it could more easily accommodate the school and all of 
the other parts of the complex that have been mentioned, but 
could you speak to the typography of the 55 acres?
    Ms. Monsanto. In reference to the 55 acres, we submitted 
information to your office before testimony. We gave a map the 
National Park gave us of the property. The property is 
basically flat. No, we have not had a surveyor to go out there. 
We do know there are a lot of guts and stuff like that that 
will have to be worked on. However, we do want to build an 
environmental friendly environment there. So, these are things 
that we can work together to make this campus an excellent 
campus for everyone to be happy with.
    Mrs. Christensen. I'm glad you raised up the map, because I 
was going to ask Mr. Jones if he would like to submit the 
document you were reading from for the record.
    Ms. Monsanto. I submitted that already.
    Mrs. Christensen. That's part of the testimony and your map 
is part of the testimony too, OK.
    Ms. Monsanto. Yes.
    Mrs. Christensen. OK. And I know Ms. Monsanto, too, that 
you, Ms. Cox and others have done extensive research on 
properties. For the record, have you identified alternative 
properties or any local government property on St. John?
    Ms. Monsanto. The local government does not have enough 
property to match the school that we're speaking of.
    I do want to make a very important comment.
    Mrs. Christensen. Yes.
    Ms. Monsanto. The children of this community, and I have a 
child that's being raised in this community, they are diamonds. 
And they are pure diamonds. They have to be polished. So, they 
need this school. And they are not going to be put on the 
sideline to protect lands. Because some of this land--some of 
the lands that the National Park has is not theirs. So, if you 
really want to talk about history, we could go have a history 
class tonight, but we don't have the time, OK.
    So, the National Park, I have asked for years, show me your 
survey, show me your bounds. You own land that is not yours. We 
are asking for 55 acres to educate the diamonds of this 
environment and it's a problem. The National Park is acquiring 
land in Mahoe Bay Estate. They are amassing more lands from 
family members. How much more blood must we give them? How much 
more should we cry?
    Mrs. Christensen. I think you--well, let me just say for 
the record to that, I asked the question to have on the record 
that there is no other available----
    Ms. Monsanto. There is no other available land. It's 
important to the record, OK, there is no other available land. 
Our founding fathers, like Gaylord Sprauve eluded to, we live a 
simple life. Their vision was not the vision of today. Times 
have changed. We have new visionaries in our environment. Here 
we are at the table. Here we are all around here. We have 
youngsters sitting in this audience today who are going to be 
running this government and doing things that we never dreamed 
of. So, we have to make sure that they are educated correctly 
in the right environment, that they have everything everybody 
else is afforded.
    Mrs. Christensen. That's true. We don't disagree, but we 
want to make sure that the record shows that really that there 
is no alternatives.
    Ms. Monsanto. There is no alternative.
    Mrs. Christensen. And Mr. Jones, we talked about the 55 
acres verses 10. Is there a minimum acreage that the group, 
that--because I even think that I remember Mr. Harley talking 
about more than 10 acres at one point also. Was there a minimum 
that was identified, acreage that was identified? And if you 
can't answer, if anyone else can answer.
    Ms. Cox. Our group did a study. We researched it on the 
internet, and elementary schools are starting anywhere between 
10 and 12 acres. Middle schools start at 15 to 20. High schools 
start at 25 and up.
    So, we're talking about a condensed location with what our 
needs and what our vision is for St. John, and 55 acres would 
probably just do it for us.
    Mrs. Christensen. Thank you. Thank you, for the research. 
Did you want to respond to, Mr. Sprauve?
    Mr. Sprauve. I want to say something.
    Mrs. Christensen. Yes, go right ahead, sir.
    Mr. Sprauve. I think we've heard two speakers here this 
evening speak about the precedent that would be set with 
National Parks nationally. I'm am not a lawyer, so I am not 
speaking on any legal basis. The issue might be a legal one. We 
are an unincorporated territory of the United States. As such, 
the Congress of the United States determines what we get, what 
we don't get, how we get it. And it has nothing to do with 
national issues. It is we are property of the United States, 
and the Congress has the right to do what it wishes with us, 
including disposing of us. They can also do all needful rules 
and regulations to govern us, and I don't see why we keep 
raising this issue. If Congress determined that that 55 acres 
that is not now caught up with the reversionary clause, even 
though I would raise the question about that, has anyone 
approached, anyone in authority approached the Rockefeller 
Foundation on easing that provision so that we can do what we 
need to do here on St. John?
    That's the kind of comments that I have here. I want to 
know Congress' role, since it is a congressional hearing, 
Congress' role in governing these territories. And if Congress 
feels that this is what they need to do, notwithstanding any 
other argument about the national concerns, it seems to me the 
lawyers in the audience should be the ones to be talking this 
talk. They should be the ones to be helping us clarify this. 
But I think this is an important consideration.
    Mrs. Christensen. Thank you. And it applies in other areas 
as well. So, thank you for that comment.
    Ms. Cox, you mentioned the different types of students we 
have, including home school. Do you believe that if we had the 
school that we are envisioning here this evening, that some of 
those home school children--some of the parents would stop home 
school and send them to a preferred school in a better 
educational environment and a safe environment?
    Ms. Cox. Absolutely, without a doubt.
    Mrs. Christensen. Mr. Jones, you wanted to answer.
    Mr. Jones. I am one of those home schooling parents. As I 
came home with my children and I started at the Julius C. 
Sprauve School, I was teaching there for one year. The school 
was deplorable. It's way too old. It's out-sized. There were 
too many things that created a hostile environment for the 
teachers, a hostile environment for the children, and the need 
for a new school was there. Then I decided to go to the private 
school. The private school, even with scholarships I pay $8,000 
per child per year. They told me this last school year you 
would have to pay $9,000 per child. So, I'm now home schooling.
    And I know from many of the parents, because I was one of 
the PTA persons at both schools, the private school and the 
public, many of those parents who are making those payments 
right now, they might be Caucasians but they are not wealthy. 
And they would love for us to get one great school that they 
feel that their kids would be safe in and the education would 
be top notch, and we would have a beautiful school, just like 
St. John has always been the melting pot of all races of people 
and all cultures. So, it will be the ideal thing. And many 
parents would take their kids out and put them in there.
    And also to add a little touch to that, many of the parents 
are hoping that we could put all the schools together, but it 
wouldn't be under a public only status. It would be under a 
public/private status, which is something we have going on now 
in the states----
    Mrs. Christensen. The charter schools.
    Mr. Jones. The charter schools. A lot of parents have said, 
yes, I will bring my kids over if we could have that 
combination. Now, we have a lot to do in learning how that 
works and if it would benefit the Virgin Islands. But yes, many 
parents in private school would bring their kids to the public 
school if they felt it was safe and it produced an excellent 
learning environment.
    Mrs. Christensen. Thank you. Mr. Kessler, the parcel of 
land that's in question here was not a part of the original 
park, and the park existed up until '68 without this particular 
parcel. So, could you then explain to me why you think that 
leasing a portion or all of that particular parcel would 
diminish the park since it was not part of the original land 
set aside for the park.
    Mr. Kessler. Well, since that time, it has been a part of 
the park. It is currently a part of the park. And by taking 
that out of the park, it would diminish both the natural and 
cultural resources that contributes to the overall inventory of 
the Virgin Islands National Park.
    Mrs. Christensen. OK. And if I recall correctly from 
looking and hearing the testimony of the Acting Superintendent, 
the reason that this particular parcel was chosen was that 
there is not any historical or cultural resources or very 
limited cultural and historical resources on this particular 
parcel of land.
    Mr. Kessler. I believe she said there hasn't been an 
inventory of the cultural resources there. If you look 
elsewhere in that area of Catherineberg, I mean you have the 
windmill, you have the historic buildings, you have the 
historic walls. I think it will be fairly safe to assume that 
within neighboring properties, you have some similar historic 
structures. I mean, with the Virgin Islands National Park, 
there is some 500 to 600 historically significant structures in 
various states of repair and disrepair. And so it's safe to say 
that you would find resources there.
    Again, apparently the park has never inventoried that area. 
But I think it would be safe to say so.
    Mrs. Christensen. Well, in any case, I would just imagine 
that based on the testimony and the criteria that is used, that 
the park would not have ventured to offer a particular parcel 
of land if it had significant value to the park. And so that's 
why I raised that question.
    Mr. Kessler. No, I understand that. And I think, at least 
from my understanding, obviously I don't speak for the park, my 
understanding from conversations is one of the reasons or part 
of the reasons why the park offer that was, one, it was a 
convenient location to put a school. It was between Cruz Bay 
and Coral Bay. It was on the main road to ease transportation. 
It was a relatively flat area, which is obviously a premium on 
St. John. It also abuts developed areas. So, you're not like 
carving something out in the middle of park land. But on the 
edge of the park, there is also a ridge to the north that would 
then shield the campus from view from the north shore or from 
sea so as not to impair the visual aspect of the park. And 
those are just some of the reasons that they chose that area.
    Also, obviously, as has been discussed by many of the 
panel, it wasn't included within--it was a later acquisition 
and, therefore, not included within the reversionary 
conditions.
    Mrs. Christensen. Right. But it just seems to me that it 
could be exchanged, that it met certain criteria that would 
also apply to the lease.
    Go ahead, you wanted to add a response?
    Mr. Sprauve. Thank you, Delegate Christensen. I just wanted 
to comment on your question, because I see it a little 
differently than Mr. Kessler does. The land which is presently 
within the boundaries of the National Park are not part of the 
National Park. And I asked the Committee to look at St. John 
because there is something very unique that gives you a broad 
brush to create something new that wouldn't apply to other 
parks, and that is that we are one of the only parks that does 
not have the right of condemnation.
    People from the Virgin Islands went to Washington in the 
50's, and we rode on donkey backs in Washington protesting the 
concept that they might have right of condemnation. And for 
those in the audience who don't know, that means that almost 
all of the other units of the National Park Service have the 
ability to condemn the land and pay fair market value, and put 
that land into the park.
    We do not. There is a reason for it. We're special and we 
ask you to use that special dispensation to give us land. Make 
it available to us to create an educational campus.
    Mrs. Christensen. Thank you. Thank you for adding that 
piece of information. And Mr. Sprauve, I know your first, 
second and third alternatives in order of preference, but there 
has also been some talk on exchanging land maybe from St. Croix 
for the land for the school in St. John. And if that was 
possible--of course we would have to discuss it with others--I 
will let you answer also after Mr. Sprauve answers.
    I want to just point out that the reason for this hearing 
is to get as much information on the record so that when we go 
back to Washington, we would have that information with which 
to continue our deliberations and make our decisions. So, I'm 
trying to get as much as possible on the record because that 
discussion has been taking place.
    Would you consider such an exchange as being--where would 
you consider that exchange in terms of your first, second and 
third?
    Mr. Sprauve. I'm happy to respond. I think everything that 
I have said over the past couple of years is that any available 
public lands that is government owned, you can't do this with a 
private individual. A private individual wishes to sell his 
land, he can do that. But I do not believe that we should 
enlarge the park with any more Virgin Islands' public lands, 
period.
    Mrs. Christensen. OK, got it. That's not something that I 
was proposing, but it has been proposed and brought to my 
attention that there are some discussions. So, that response is 
very helpful.
    Do you still want to respond or do you think that took care 
of it, Ms. Monsanto?
    Ms. Monsanto. Since we're putting things on the record, I 
also want to confer that I am in total agreement. Why should we 
swap precious land on St. Croix for land on St. John? We have 
to be fair. And I think if we're going to speak partnerships, I 
think--the major problem that has always been on St. John, we 
have always said, and I'm going to say it so this could be on 
the record, Friends of the Park, enemy of the state.
    So, place that on the record. We have to work together to 
make sure that we are tangible partners in the management of 
everything that goes on in this park. The National Park was set 
up for the people of St. John. When the Park was set up, they 
thought the Park was being here for all of their generations to 
enjoy. We no longer enjoy the Park.
    How many people in this room pay $4.00 to go to Trunk Bay? 
When do we enjoy the Park? People who live here, we do not 
enjoy this Park. It is a constant fight every day with this 
Park. And we're saying, we're putting out the olive branch now 
and we're saying, yes, the Delegate has brought something to 
the table. It is a feasible thing. We all can understand the 
lease. Let's work together. We don't want to be adversarial. We 
want to work together. The olive branch has been extended, but 
we, too, want everyone to respect us, and we don't want to take 
anything from anybody else. Our sister islands, they also have 
things that they need, and it would be unjust and unfair. Thank 
you.
    Mrs. Christensen. Thank you. Mr. Grijalva, did you have any 
further questions?
    Mr. Grijalva. Yes. Thank you, Madam Chair, and let me thank 
all the witnesses today. I appreciate it very much. And if I 
may say, Madam Chair, I think one of the important points here, 
and I appreciate all the testimony, one of the important points 
here is the community of St. John and their needs for the 
future. And I appreciated all the testimony today about that, 
particularly education.
    The concept of the land that was donated to the Federal 
government, there was--we need to be consistent with that 
donation. And yes, part of the donation was for the 
preservation and the conservation of valuable, beautiful land 
on St. John. But also, as I understand the testimony and the 
record, also part of that consistency of that donation was the 
derived benefit and public use for the people of St. John, and 
with that, Madam Chair, I think, as we work through this 
legislation. And thank you very much for bringing this to all 
of us. It's keeping that consistency and what the purpose of 
the donation was to preserve and keep a special place for 
everybody else to enjoy, but at the same time, to derive some 
benefit for the people of St. John. Thank you.
    Mrs. Christensen. And I really want to just again before we 
close, to thank you for taking the time. I know it was not 
easy, to come here and be a part of this hearing as Chair of 
the Subcommittee on National Parks, as well as a valuable 
committee member on the Committee on Education and Labor.
    As I said in my opening statement, we have gone through 
this over the last ten years moving from one point to the 
other. We started out with working toward an administrative 
exchange of lands between the V.I. Government and the Park. We 
went from there to try to legislate such an exchange. But in 
listening to the people of St. John, all of the people of St. 
John, we have really left the exchange issue behind at this 
point.
    And that's why in this Congress, we really looked at what 
was the most feasible thing that we could introduce. And as we 
began, as we ended the last Congress and began this one, and 
discussed it with Mr. Frederick, the past Superintendent, we 
thought that perhaps this lease was the most feasible way to 
move forward.
    I would say that we have not totally written out the 
possibility of a conveyance, and we are continuing to research 
that. We understand that that is the preference for the people 
of St. John and we want to be responsive not just to one group, 
but to the other group. But we want to be responsive in a way 
that is to the benefit of all of the people on St. John and 
most especially our children, because the issue here is 
providing a safe and nurturing and supportive educational 
environment for our children. And obviously the schools that we 
have now and the locations that they are in now are not 
providing that kind of an environment for our children.
    So, we need to find a way to move this as quickly as 
possible. Thirty years is too long, and I think we've gone 
through the exchange issue. So, we are not going to deal with 
that.
    The testimony that has been given here from all of our 
panels has been very, very helpful, as well as those that have 
been submitted in writing.
    Again, I would want to invite anyone who continues to want 
to provide written testimony, that for the next ten business 
days, the Committee's record is open, and we would welcome any 
written testimony that would come forward.
    I want to thank our panelists, but I also want to thank the 
community for the strong showing. Not having heard testimony 
from all of you, your presence here, though, is a very loud and 
very significant testimony in itself, and we thank you all for 
being here.
    The Committee now stands adjourned.
    [Whereupon, the Subcommittee was adjourned.]

    NOTE: Although the following individuals were unable to 
personally testify, their statements submitted for the record 
have been retained in the Committee's official files.
    <bullet>  Steve Black
    <bullet>  Theodore Chouiniere
    <bullet>  Alvis Christian
    <bullet>  Elsa Emily Hall
    <bullet>  Crystal Fortwangler, Ph.D.
    <bullet>  Richard P. Decker
    <bullet>  Owen Sewer, Sr., Virgin Islands Board of 
Education
    <bullet>  Christophena Todman
    <bullet>  Donald J. Willey

                                 <all>

</pre></body></html>
